                                       Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices                                                                                       54031

TABLE 8.C—UPDATE FACTORS 1 FOR FACILITY—SPECIFIC PORTION OF THE SNF PPS RATES—ADJUST TO 12-MONTH
    COST REPORTING PERIODS BEGINNING ON OR AFTER OCTOBER 1, 1999 AND BEFORE OCTOBER 1, 2000 FROM
    COST REPORTING PERIODS BEGINNING IN FY 1995 (BASE YEAR)


                                                                                                  Adjust from 12-month cost reporting period in base year that                                   Using update
     If 12-month cost reporting period in initial period begins                                                             begins                                                                 factor of

October 1, 1999 ..........................................................................       October 1, 1994 .........................................................................            1.09929
November 1, 1999 ......................................................................          November 1, 1994 .....................................................................               1.09897
December 1, 1999 ......................................................................          December 1, 1994 .....................................................................               1.09855
January 1, 2000 ..........................................................................       January 1, 1995 .........................................................................            1.09831
February 1, 2000 ........................................................................        February 1, 1995 .......................................................................             1.09827
March 1, 2000 .............................................................................      March 1, 1995 ............................................................................           1.09841
April 1, 2000 ................................................................................   April 1, 1995 ...............................................................................        1.09853
May 1, 2000 ................................................................................     May 1, 1995 ...............................................................................          1.09861
June 1, 2000 ...............................................................................     June 1, 1995 ..............................................................................          1.09866
July 1, 2000 ................................................................................    July 1,1995 .................................................................................        1.09879
August 1, 2000 ............................................................................      August 1, 1995 ...........................................................................           1.09900
September 1, 2000 .....................................................................          September 1, 1995 ....................................................................               1.09929
   1 Source:     Standard & Poor’s DRI, 1st Qtr 1999; @USSIM/TREND25YR0299@CISSIM/CONTROL991


(Authority: Section 1888 of the Social                                     Dated: September 23, 1999.                                             compliance guidance, the OIG has
Security Act (42 U.S.C. 1395yy))                                         Jane M. Harrison,                                                        worked closely with the Health Care
(Catalog of Federal Domestic Assistance                                  Director, Division of Policy Review and                                  Financing Administration (HCFA), the
Program No. 93.773, Medicare—Hospital                                    Coordination.                                                            Department of Justice (DOJ) and various
Insurance; and Program No. 93.774,                                       [FR Doc. 99–25793 Filed 10–4–99; 8:45 am]                                sectors of the health care industry to
Medicare—Supplementary Medical                                           BILLING CODE 4160–15 P                                                   provide clear guidance to those
Insurance Program)                                                                                                                                segments of the industry that are
  Dated: September 27, 1999.                                                                                                                      interested in reducing fraud and abuse
Brian P. Burns,                                                          DEPARTMENT OF HEALTH AND                                                 within their organizations. The five
                                                                         HUMAN SERVICES                                                           previously-issued compliance program
Deputy Assistant, Secretary for Information
                                                                                                                                                  guidances were focused on the hospital
Resources Management.                                                    Office of Inspector General                                              industry; home health agencies; clinical
[FR Doc. 99–25789 Filed 10–4–99; 8:45 am]
                                                                                                                                                  laboratories; third-party medical billing
BILLING CODE 4120–01–P                                                   Publication of the OIG Compliance                                        companies; and the durable medical
                                                                         Program, Guidance for Hospices                                           equipment, prosthetics, orthotics and
                                                                         AGENCY: Office of Inspector General                                      supply industry. The development of
DEPARTMENT OF HEALTH AND                                                                                                                          these types of compliance program
                                                                         (OIG), HHS.
HUMAN SERVICES                                                                                                                                    guidance is based on our belief that a
                                                                         ACTION: Notice.
                                                                                                                                                  health care provider can use internal
Health Resources and Services                                            SUMMARY:    This Federal Register notice                                 controls to more efficiently monitor
Administration                                                           sets forth the recently issued                                           adherence to applicable statutes,
                                                                         Compliance Program Guidance for                                          regulations and program requirements.
Notice of Filing of Annual Report of
                                                                         Hospices developed by the Office of
Federal Advisory Committee                                                                                                                        Guidance for the Hospice Industry
                                                                         Inspector General (OIG). The OIG has
  Notice is hereby given that pursuant                                   previously developed and published                                         On January 13, 1999, the OIG
                                                                         compliance program guidance focused                                      published a solicitation notice (64 FR
to section 13 of Public Law 92–463, the
                                                                         on several other areas and aspects of the                                2228) seeking information and
Annual Report for the following Health
                                                                         health care industry. We believe that the                                recommendations for developing
Resources and Services                                                   development and issuance of this                                         guidance for the hospice industry. In
Administration’s Federal Advisory                                        compliance program guidance for                                          response to that solicitation notice, the
Committee has been filed with the                                        hospices will continue to serve as a                                     OIG received numerous comments from
Library of Congress:                                                     positive step toward promoting a higher                                  various parts of the industry and from
Maternal and Child Health Research                                       level of ethical and lawful conduct                                      their representatives. After careful
 Grants Review Committee                                                 throughout the entire health care                                        consideration of those initial comments,
                                                                         industry.                                                                and in an effort to ensure that all parties
   Copies are available to the public for                                FOR FURTHER INFORMATION CONTACT:                                         had a reasonable opportunity to provide
inspection at the Library of Congress                                    Michael Shaw, Office of Counsel to the                                   input into a final product, the OIG
Newspaper and Current Periodical                                         Inspector General, (202) 619–2078.                                       published draft guidance for the hospice
Reading Room, Room 1026, Thomas                                          SUPPLEMENTARY INFORMATION:                                               industry on July 21, 1999 (64 FR 39150)
Jefferson Building, Second Street and                                                                                                             for further comment and
Independence Avenue, S.E.,                                               Background                                                               recommendations.
Washington, D.C. Copies may be                                              The creation of compliance program                                    Elements for an Effective Compliance
obtained from: Gontran Lamberty, Dr.                                     guidance remains a major initiative by                                   Program
P.H., Room 18A–55, Parklawn Building,                                    the OIG in its efforts to engage the
5600 Fishers Lane, Rockville, Maryland                                   health care community in combating                                         Through experience, the OIG has
20857, Telephone (301) 443–3146.                                         fraud and abuse. In formulating                                          identified seven fundamental elements
54032                         Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices

to an effective compliance program.                        Within this document, the OIG first         words and actions of a hospice’s
They are:                                               provides its general views on the value        leadership as a measure of the
   • implementing written policies,                     and fundamental principles of hospice          organization’s commitment to
procedures and standards of conduct;                    compliance programs, and then                  compliance. Indeed, many hospices
   • designating a compliance officer                   provides the specific elements that each       have adopted mission statements
and compliance committee;                               hospice should consider when                   articulating their commitment to high
   • conducting effective training and                  developing and implementing an                 ethical standards. A formal compliance
education;                                              effective compliance program. While            program, as an additional element in
   • developing effective lines of                      this document presents basic procedural        this process, offers a hospice a further
communication;                                          and structural guidance for designing a        concrete method that may improve the
   • enforcing standards through well­                  compliance program, it is not in itself a      appropriateness and quality of care and
publicized disciplinary guidelines;                     compliance program. Rather, it is a set        reduce waste. Compliance programs
   • conducting internal monitoring and                 of guidelines to be considered by a            also provide a central coordinating
auditing; and                                           hospice interested in implementing a           mechanism for furnishing and
   • responding promptly to detected                    compliance program.                            disseminating information and guidance
offenses and developing corrective                         The OIG recognizes the size­                on applicable Federal and State statutes,
action.                                                 differential that exists between               regulations and other requirements.
   Through application of these seven                   operations of the different hospices and         Implementing an effective compliance
basic elements, the OIG is offering                     organizations that compose the hospice         program requires a substantial
specific compliance measures that may                   industry. Appropriately, this guidance         commitment of time, energy and
be implemented in hospice industry                      is pertinent for all hospices, whether         resources by senior management and the
operations in an effort to curtail or                   for-profit, non-profit, provider-based,        hospice’s governing body.3 Superficial
eliminate fraud and abuse. As with                      independent, community-based,                  programs that simply purport to comply
previously-issued OIG compliance                        volunteer-based, large, small, urban or        with the elements discussed and
guidances, adoption of the Compliance                   rural. The applicability of the                described in this guidance or programs
Program Guidance for Hospices set forth                 recommendations and guidelines                 that are hastily constructed and
below will be strictly voluntary.                       provided in this document depends on           implemented without appropriate
   A reprint of this newly-issued                       the circumstances of each particular           ongoing monitoring will likely be
compliance program guidance follows:                    hospice. However, regardless of a              ineffective and could expose the
Office of Inspector General’s                           hospice’s size and structure, the OIG          hospice to greater liability than no
Compliance Program Guidance for                         believes that every hospice can and            program at all. While it may require
Hospices (September 1999)                               should strive to accomplish the                significant additional resources or
                                                        objectives and principles underlying all       reallocation of existing resources to
I. Introduction                                         of the compliance policies and                 implement an effective compliance
   The Office of Inspector General (OIG)                procedures recommended within this             program, the OIG believes that the long
of the Department of Health and Human                   guidance.                                      term benefits of implementing the
Services (HHS) continues to promote                        Fundamentally, compliance efforts           program outweigh the costs.4
voluntarily developed and implemented                   are designed to establish a culture
                                                                                                       A. Benefits of Compliance Plan
compliance programs for the health care                 within a hospice that promotes
industry. The following compliance                      prevention, detection, and resolution of          The OIG believes an effective
program guidance is intended to assist                  instances of conduct that do not               compliance program provides a
hospices 1 and their agents and                         conform to Federal and State law, and          mechanism that brings the public and
subproviders (referred to collectively in               Federal, State and private payor health        private sectors together to reach mutual
this document as ‘‘hospices’’) develop                  care program requirements, as well as          goals of reducing fraud and abuse,
effective internal controls that promote                the hospice’s business policies. In            strengthening operational quality,
adherence to applicable Federal and                     practice, the compliance program               improving the quality of health care
State law, and the program requirements                 should effectively articulate and              services and reducing the cost of health
of Federal, State, and private health                   demonstrate the organization’s                 care. Attaining these goals provides
plans. The adoption and                                 commitment to ethical conduct.                 positive results to hospices, the
implementation of voluntary                             Compliance programs guide a hospice’s          Government, and individual citizens
compliance programs significantly                       governing body (e.g., board of directors       alike. In addition to fulfilling its legal
advance the prevention of fraud, abuse                  or trustees), chief executive officer          duty to ensure that it is not submitting
and waste in these health care plans                    (CEO), managers, physicians, clinicians,       false or inaccurate claims to
while at the same time further the                      billing personnel, and other employees         Government and private payors, a
fundamental mission of all hospices,                    in the efficient management and                hospice may gain numerous additional
which is to provide palliative care 2 to                operation of a hospice. Eventually, a
                                                                                                         3 Recent case law suggests that the failure of a
patients.                                               compliance program should become               corporate director to attempt in good faith to
                                                        part of the fabric of routine hospice          institute a compliance program in certain situations
   1 The term ‘‘hospice’’ is applied in this document   operations.                                    may be a breach of a director’s fiduciary obligation.
as the term ‘‘hospice program’’ is defined in 42           It is incumbent upon a hospice’s            See, e.g., In re Caremark International Inc.
U.S.C. 1395x(dd).                                                                                      Derivative Litigation, 698 A.2d 959 (Ct. Chanc. Del.
                                                        corporate officers and managers to
   2 Palliative care is an intensive program of care                                                   1996).
that focuses on the relief of pain and suffering        provide ethical leadership to the                4 The conclusion of a recent report by the United

associated with a terminal illness. Through this        organization and to assure that adequate       States General Accounting Office (GAO) to Congress
emphasis on palliative rather than curative services,   systems are in place to facilitate ethical     stated that ‘‘despite the investment of time and
individuals have a choice whenever conventional         and legal conduct. Employees, managers         resources that compliance programs entail, many
approaches for medical treatment may no longer be                                                      hospitals believe the benefits of these programs . . .
appropriate. Hospice addresses the needs of             and the Government will focus on the           outweigh their costs . . . and providers themselves
terminally ill individuals by including the patient                                                    believe that complance programs can reduce
and family, specially trained volunteers, caregivers    medicine, nursing, social work and spiritual   improper Mecicare payments.’’ See GAO report
from the community, and representatives from            counseling in the caregiving team.             GAO/HEHS–99–59 (April 1999).
                              Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices                                                 54033

benefits by voluntarily implementing an                  the requirements of private health care             and recommendations in reports issued
effective compliance program. These                      programs, through the establishment of              by OIG’s Office of Audit Services and
benefits may include the ability to:                     an effective compliance program,                    Office of Evaluation and Inspections, as
   • formulate effective controls to                     significantly reduces the risk of                   well as the experience of past and recent
assure compliance with Federal and                       unlawful or improper conduct.                       fraud investigations related to hospices
State statutes, rules and regulations, and                                                                   conducted by OIG’s Office of
                                                         B. Application of Compliance Program
Federal, State and private payor health                                                                      Investigations and the Department of
                                                         Guidance
care program requirements and internal                                                                       Justice. As appropriate, this guidance
guidelines;                                                 Given the diversity within the                   may be modified and expanded as more
   • concretely demonstrate to                           industry, there is no single ‘‘best’’               information and knowledge is obtained
employees and the community at large                     hospice compliance program. The OIG                 by the OIG, and as changes in the law,
the hospice’s strong commitment to                       understands the variances and                       rules, policies and procedures of the
honest and responsible provider and                      complexities within the hospice                     Federal, State and private health plans
corporate conduct;                                       industry and is sensitive to the                    occur.
   • identify and prevent illegal and                    differences among large national and                   The OIG recognizes that the
unethical conduct;                                       regional multi-hospice organizations,               development and implementation of
   • improve internal communication;                     small independent hospices and other                compliance programs in hospices often
   • more quickly and accurately react                   types of hospice organizations and                  raise sensitive and complex legal and
to employees’ operational compliance                     systems. However, elements of this                  managerial issues.7 However, the OIG
concerns and target resources to address                 guidance can be used by all hospices,               wishes to offer what it believes is
those concerns;                                          regardless of size, location, or corporate          critical guidance for providers who are
   • improve the quality, efficiency, and                structure, to establish an effective                sincerely attempting to comply with the
consistency of patient care;                             compliance program. Similarly, a                    relevant health care statutes and
   • create a centralized source for                     hospital or corporation that owns a                 regulations.
distributing information on health care                  hospice or provides hospice services
statutes, regulations, and other program                 may incorporate these elements into its             II. Compliance Program Elements
directives regarding fraud, waste and                    system-wide compliance or managerial                   The elements proposed by these
abuse, and related issues;                               structure. We recognize that some                   guidelines are similar to those of other
   • formulate a methodology that                        hospices may not be able to adopt                   compliance program guidances 8 and the
encourages employees to report                           certain elements to the same                        OIG’s corporate integrity agreements.9
potential problems;                                      comprehensive degree that others with               The elements represent a guide that can
   • develop procedures that allow the                   more extensive resources may achieve.               be tailored to fit the needs and financial
prompt, thorough investigation of                        This guidance represents the OIG’s                  realities of a particular hospice. The OIG
alleged misconduct by corporate                          suggestions on how a hospice can best               is cognizant that, with regard to
officers, managers, employees,                           establish internal controls and                     compliance programs, one model is not
independent contractors, consultants,                    monitoring to correct and prevent                   suitable to every hospice.
volunteers, physicians, nurses and other                 fraudulent activities. By no means                     The OIG believes that every effective
health care professionals;                               should the contents of this guidance be             compliance program must begin with a
   • initiate immediate, appropriate, and                viewed as an exclusive discussion of the            formal commitment 10 by the hospice’s
decisive corrective action; and                          advisable elements of a compliance                  governing body to include all of the
   • minimize, through early detection                   program. On the contrary, the OIG                   applicable elements listed below. These
and reporting, the loss to the                           strongly encourages a hospice to                    elements are based on the seven steps of
Government from false claims, and                        develop and implement compliance                    the Federal Sentencing Guidelines.11
thereby reduce the hospice’s exposure                    elements that uniquely address its own
to civil damages and penalties, criminal                 particular risk areas.                                 7 Nothing stated within this document should be

sanctions and administrative remedies,                      The OIG believes that input and                  substituted for, or used in lieu of, competent legal
such as program exclusion.5                              support by the individuals and                      advice from counsel.
                                                                                                                8 See 63 FR 70138 (December 18, 1998) for the
   Overall, the OIG believes that an                     organizations that will use the tools set
                                                                                                             Compliance Program Guidance for Third Party
effective compliance program is a sound                  forth in this document are critical to the          Medical Billing Companies; 63 FR 42410 (August 7,
investment on the part of a hospice.                     development and success of this                     1998) for the Compliance Program Guidance for
   The OIG recognizes that the                           compliance program guidance. In a                   Home Health Agencies; 63 FR 45076 (August 24,
                                                         continuing effort to collaborate closely            1998) for the Compliance Program Guidance for
implementation of a compliance                                                                               Clinical Laboratories, as revised; 63 FR 8987 (1998)
program may not entirely eliminate                       with the private sector, the OIG placed             for the Compliance Program Guidance for Hospitals.
fraud, abuse and waste from the hospice                  a notice in the Federal Register                    These documents are also located on the Internet
system. However, a sincere effort by                     soliciting recommendations and                      at http://www.dhhs.gov/progorg/oig.
hospices to comply with applicable                       suggestions on what should be included                 9 Corporate integrity agreements are executed as

                                                         in this Compliance Program Guidance,                part of a civil settlement between the health care
Federal and State standards, as well as                                                                      provider and the Government to resolve a case
                                                         and then published draft Compliance                 based on allegations of health care fraud or abuse.
  5 The OIG, for example, will consider the              Program Guidance for Hospices in the                These OIG-imposed programs are in effect for a
existence of an effective compliance program that        Federal Register for public comment.6               period of three to five years and require many of
pre-dated any governmental investigation when            Further, we took into consideration                 the elements included in this compliance program
addressing the appropriateness of administrative                                                             guidance.
                                                         previous OIG publications, such as                     10 E.g., a resolution by the board of directors,
sanctions. See 62 FR 67392 (December 24, 1997).
The burden is on the provider to demonstrate the         Special Fraud Alerts, the recent findings           owner(s) or president, where applicable, and the
operational effectiveness of a compliance program.                                                           allocation of adequate resources to ensure that each
Further, the False Claims Act, 31 U.S.C. 3729–3733,        6 See 64 FR 2228 (January 13, 1999), Notice for   of the elements is addressed.
provides that a person who has violated the Act, but     Solicitation of Information and Recommendations        11 See United States Sentencing Commission

who voluntarily discloses the violation to the           for Developing OIG Compliance Program Guidance      Guidelines, Guidelines Manual, 8A1.2, Application
Government, in certain circumstances will be             for the Hospice Industry; 64 FR 39150 (July 21,     Note 3(k). The Federal Sentencing Guidelines are
subject to not less than double, as opposed to treble,   1999), Draft Compliance Program Guidance for        detailed policies and practices for the Federal
damages. See 31 U.S.C. 3729(a).                          Hospices.                                                                                      Continued
54034                        Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices

Further, we believe that every hospice                compliance, identify problem areas, and                 divisions, including affiliated providers
can implement most of our                             assist in the reduction of identified                   operating under the hospice’s control
recommended elements that expand                      problem areas;                                          and other health care professionals (e.g.,
upon these seven steps. We recognize                    (6) The development of appropriate                    hospice physicians, 16 nurses, physical
that full implementation of all elements              disciplinary mechanisms to enforce                      therapists, occupational therapists,
may not be immediately feasible for all               standards and the development of                        social workers, spiritual counselors,
hospices. However, as a first step, a                 policies to address (i) employees who                   bereavement counselors and
good faith and meaningful commitment                  have violated internal compliance                       volunteers). Standards should articulate
on the part of the hospice                            policies, applicable statutes, regulations              the hospice’s commitment to comply
administration, especially the governing              or Federal health care program                          with all Federal, State and private
body and the CEO, will substantially                  requirements 13 and (ii) the employment                 insurer standards, with an emphasis on
contribute to a program’s successful                  of sanctioned and other specified                       preventing fraud and abuse. They
implementation. As the compliance                     individuals; and                                        should explicitly state the organization’s
program is implemented, that                            (7) The development of policies that                  mission, goals and ethical requirements
commitment should cascade down                        direct prompt and proper responses to                   of compliance and reflect a carefully
through the management of the hospice                 detected offenses, including the                        crafted, clear expression of expectations
to every employee at all levels in the                initiation of appropriate corrective                    for all hospice governing body members,
organization.                                         action and preventative measures.                       officers, managers, employees,
   At a minimum, comprehensive                        A. Written Policies and Procedures                      physicians, clinicians and, where
compliance programs should include                                                                            appropriate, volunteers, contractors and
                                                         Every compliance program should                      other agents. These standards should
the following seven elements:
                                                      require the development and                             promote integrity, support objectivity,
   (1) The development and distribution
                                                      distribution of written compliance                      and foster trust. Standards should not
of written standards of conduct, as well
                                                      policies, standards, and practices that                 only address compliance with statutes
as written policies and procedures,
                                                      identify specific areas of risk and                     and regulations, but should also set
which promote the hospice’s
                                                      vulnerability to the hospice. These                     forth broad principles that guide
commitment to compliance and address
                                                      policies, standards and practices should                employees in conducting business
specific areas of potential fraud, such as
                                                      be developed under the direction and                    professionally and properly.
assessment of Medicare eligibility,
                                                      supervision of, or subject to review by,                   The standards should be distributed
quality assurance and financial
                                                      the compliance officer and compliance                   to, and comprehensible by, all affected
relationships with nursing facilities and
                                                      committee and, at a minimum, should                     employees (e.g., translated into other
other health care professionals and
                                                      be provided to all individuals who are                  languages when necessary and written
entities;
                                                      affected by the particular policy at issue,             at appropriate reading levels). Further,
   (2) The designation of a compliance
                                                      including the hospice’s agents and                      to assist in ensuring that employees
officer and other appropriate bodies,
                                                      independent contractors. 14                             continuously meet the expected high
e.g., a corporate compliance committee,
charged with the responsibility for                   1. Standards of Conduct                                 standards set forth in the code of
operating and monitoring the                                                                                  conduct, any employee handbook
                                                         Hospices should develop standards of                 delineating or expanding upon these
compliance program, and who report                    conduct for all affected employees that
directly to the CEO and the governing                                                                         standards of conduct should be
                                                      include a clearly delineated                            regularly updated as applicable statutes,
body;12                                               commitment to compliance by the                         regulations and Federal health care
   (3) The development and                            hospice’s senior management 15 and its                  program requirements are modified and/
implementation of regular, effective
                                                                                                              or clarified.17
education and training programs for all                  13 The term ‘‘Federal health care programs’’ is

affected employees;                                   applied in this document as defined in 42 U.S.C.
                                                      1320a–7b(f), which includes any plan or program         chief operating officer, general counsel, and chief
   (4) The creation and maintenance of                                                                        financial officer, as well as other medical or clinical
                                                      that provides health benefits, whether directly,
a process, such as a hotline or other                 through insurance, or otherwise, which is funded
                                                                                                              personnel, as appropriate, in the development of
reporting system, to receive complaints                                                                       standards of conduct. Such involvement should
                                                      directly, in whole or in part, by the United States
                                                                                                              help communicate a strong and explicit statement
and ensure effective lines of                         Government (i.e., via programs such as Medicare,
                                                                                                              of compliance goals and standards.
communication between the compliance                  Federal Employees’ Compensation Act, Black Lung,           16 When the term ‘‘hospice phyisican’’ is applied
                                                      or the Longshore and Harbor Worker’s
officer and all employees, and the                    Compensation Act) or any State health plan (e.g.,
                                                                                                              in this document, it refers to the hospice’s medical
adoption of procedures to protect the                                                                         director or the physician member of a hospice’s
                                                      Medicaid, or a program receiving funds from block
                                                                                                              Interdisciplinary Group. The ‘‘Interdisciplinary
anonymity of complainants and to                      grants for social services or child health services).
                                                                                                              Group,’’ which is composed of at least a doctor of
protect whistleblowers from retaliation;              Also, for the purposes of this document, the term       medicine or osteopathy, registered nurse, medical
                                                      ‘‘Federal health care program requirements’’ refers
   (5) The use of audits and/or other                 to the statutes, regulations, rules, requirements,
                                                                                                              social worker, and pastoral or other counselor, is
evaluation techniques to monitor                                                                              responsible for: (1) participation in the
                                                      directives and instructions governing Medicare,         establishment of the plan of care; (2) provision or
                                                      Medicaid and all other Federal health care              supervision of hospice care and services; (3)
criminal justice system that prescribe the            programs.                                               periodic review and updating of the plan of care for
appropriate sanctions for offenders convicted of         14 According to the Federal Sentencing
                                                                                                              each individual receiving hospice care; and (4)
Federal crimes.                                       Guidelines, an organization must have established       establishment of policies governing the day-to-day
  12 The integral functions of a compliance officer   compliance standards and procedures to be               provision of hospice care and services. See 42 CFR
and a corporate compliance committee in               followed by its employees and other agents in order     418.68.
implementing an effective compliance program are      to receive sentencing credit for an ‘‘effective’’          17 The OIG recognizes that not all standards,
discussed throughout this compliance program          compliance program. The Federal Sentencing              policies, and procedures need to be communicated
guidance. However, the OIG recognizes that a          Guidelines define ‘‘agent’’ as ‘‘any individual,        to all employees. However, the OIG believes that
hospice may tailor the structure of those positions   including a director, an officer, an employee or an     the bulk of the standards that relate to complying
in consideration of the size and design of the        independent contractor, authorized to act on behalf     with fraud and abuse laws and other ethical areas
hospice, while endeavoring to address and             of the organization.’’ See United States Sentencing     should be addressed and made part of all affected
accomplish all of the underlying objectives of a      Commission Guidelines, Guidelines Manual, 8A1.2,        employees’ training. The hospice must decide
compliance officer and a corporate compliance         Application Note 3.                                     which additional educational programs should be
committee. See section II.B. and accompanying            15 The OIG strongly encourages high-level            limited to the different levels of employees, based
notes.                                                involvement by the hospice’s governing body, CEO,       on job functions and areas of responsibility.
                               Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices                                                           54035

  When they first begin working for the                     • Uninformed consent to elect the                          • Falsified medical records or plans
hospice, and each time new standards of                   Medicare Hospice Benefit;22                                of care; 26
conduct are issued, employees should                        • Admitting patients to hospice care                       • Untimely and/or forged physician
be asked to sign a statement certifying                   who are not terminally ill;23                              certifications on plans of care;
that they have received, read, and                          • Arrangement with another health                          • Inadequate or incomplete services
understood the standards of conduct.                      care provider who a hospice knows is                       rendered by the Interdisciplinary
An employee’s certification should be                     submitting claims for services already                     Group; 27
retained by the hospice in the                            covered by the Medicare Hospice                              • Insufficient oversight of patients, in
employee’s personnel file, and available                  Benefit; 24                                                particular, those patients receiving more
for review by the compliance officer.                       • Under-utilization; 25                                  than six consecutive months of hospice
                                                                                                                     care;28
2. Risk Areas                                             or final list of areas of concern to the OIG. The            • Hospice incentives to actual or
   The OIG believes that a hospice’s                      Work Plan is currently available on the Internet at        potential referral sources (e.g.,
written policies and procedures should                    http://www.dhhs.gov/progorg/oig.                           physicians, nursing homes, hospitals,
                                                             22 A hospice must ensure that an individual (or
take into consideration the particular                                                                               patients, etc.) that may violate the anti­
                                                          authorized representative) is informed about the
statutes, rules, and program instructions                 palliative nature of the care and services that may        kickback statute or other similar Federal
that apply to each function or                            be provided if the individual desires to elect the         or State statute or regulation,29
department of the hospice.18 In contrast                  Medicare Hospice Benefit. 42 CFR 418.62. The
                                                          decision to elect the Medicare Hospice Benefit has
to the standards of conduct, which are                    significant consequences because the patient waives
                                                                                                                     resources in order to provide optimal care
designed to be a clear and concise                                                                                   consistent with the needs of a patient, family and/
                                                          the right to receive standard Medicare benefits            or lawful representative. When a patient is
collection of fundamental standards, the                  related to the terminal illness, including all             receiving hospice care, the hospice is paid a
written policies should articulate                        treatment for the purposes of curing the terminal          predetermined fee for each day during the length
specific procedures that hospice staff                    illness. See 42 U.S.C. 1395d(d). A patient’s hospice       of care, no matter how much care the hospice
                                                          election statement must include the following items        actually provides. This means that a hospice may
should follow.                                            of information: (1) Identification of the particular       have a financial incentive to reduce the number of
   Consequently, we recommend that                        hospice that will provide care to the individual; (2)      services provided to each patient, because the
these policies and procedures be                          the individual’s or representative’s                       hospice will get paid the same amount regardless
coordinated with the appropriate                          acknowledgment that he or she has been given a             of the number of services provided. The OIG has
                                                          full understanding of hospice care; (3) the                received complaints about hospices neglecting
training and educational programs, with                   individual’s or representative’s acknowledgment            patient needs and ignoring reasonable requests for
an emphasis on areas of special concern                   that he or she understands that certain Medicare           treatment, including complaints about limited
that have been identified by the OIG                      services are waived by the election; (4) the effective     availability of durable medical equipment for
through its investigative and audit                       date of the election; and (5) the signature of the         patients as their medical condition decreases and
                                                          individual or representative. See Medicare Hospice         failure to provide continuous care for periods of
functions.19 Although the OIG                             Manual § 210.                                              crisis due to staff shortages. The OIG has also been
concluded in a 1998 report that the                          23 For a hospice patient to receive reimbursement       alerted to improper utilization of services that
Medicare hospice program seems to be                      for hospice services under Medicare, the patient           occurs when a hospice encourages a patient to
working as intended,20 compliance                         must be ‘‘terminally ill.’’ See 42 U.S.C. 1395d(a). An     revoke the Medicare Hospice Benefit for the
programs for hospices should still                        individual is considered to be ‘‘terminally ill’’ if the   purpose of obtaining expensive care under the
                                                          individual has a medical prognosis that the                standard Medicare benefits, only to re-elect the
address areas of OIG concern that                         individual’s life expectancy is six months or less if      Medicare Hospice Benefit when expensive care is
include:21                                                the illness runs its normal course. 42 CFR 418.3. In       no longer necessary.
                                                          March 1995, Operation Restore Trust (ORT), a joint            26 OIG investigations have revealed that certain

   18 A hospice can conduct focus groups composed         initiative, was established between the OIG, HCFA,         hospices have falsified patient medical records and
of managers from various departments to solicit           and Administration on Aging. Among its projects,           plans of care to exaggerate the negative aspects
their concerns and ideas about compliance risks           ORT assessed the medical eligibility for hospice           regarding a hospice patient’s condition to justify
that may be then addresses by the hospice’s policies      services in the five largest States in terms of            reimbursement. See section II.A.3.b. and
and procedures. Such employee participation in the        Medicare spending (New York, Florida, Illinois,            accompanying notes.
development of the hospice’s compliance program           Texas and California). Through ORT activities, it             27 Each hospice is required to have an

can promote its credibility and foster employee           was discovered that many beneficiaries receiving           ‘‘Interdisciplinary Group’’ of personnel. See 42
acceptance of the program.                                Medicare hospice benefits did not have a terminal          U.S.C. 1395x(dd)(2)(B). See note 16. Failure of the
   19 The OIG periodically issues Special Fraud           illness as defined by Medicare. See OIG report A–          Interdisciplinary Group to meet its responsibilities
Alerts setting forth activities believed to raise legal   05–96–00023—‘‘Enhanced Controls Needed to                  may result in standard care. In addition, inadequate
and enforcement issues. For example, see OIG              Assure Validity of Medicare Hospice Enrollments.’’         review of a hospice patient may result in improper
Special Fraud Alert—‘‘Fraud and Abuse in Nursing          See also section II.A.3.a. and accompanying notes.         reimbursement for services provided to a patient
Home Arrangements with Hospices’’ (March 1998);              24 When an individual makes an election to              who fails to continue to be eligible for the Medicare
see also OIG Medicare Advisory Bulletin on                receive services covered by the Medicare Hospice           Hospice Benefit.
Hospice Benefits (November 1995). Hospice                 Benefit, that individual waives the right to receive          28 Since the enactment of the Balanced Budget

compliance programs should require that the legal         Medicare reimbursement for any treatment related           Act of 1997, the Medicare Hospice Benefit is
staff, compliance officer, or other appropriate           to his or her terminal illness. Accordingly, a             divided into the following benefit periods: (1)
personnel carefully consider any and all Special          hospice should ensure it is not involved with a            initial 90-day; (2) subsequent 90-day; and (3)
Fraud Alerts issued by the OIG that relate to             health care provider who the hospice knows                 unlimited number of 60-day benefit periods as long
hospices. Moreover, the compliance programs               submits claims for the following services that are         as the patient continues to meet program eligibility
should address the ramifications of failing to cease      unallowable for reimbursement under the Medicare           requirements. See 42 U.S.C. 1395d. At the
and correct any conduct criticized in a Special           Hospice Benefit: (1) Standard Medicare benefits for        beginning of each subsequent 60-day benefit period,
Fraud Alert, if applicable to hospices, or to take        treatment of the terminal illness; (2) treatment by        the hospice physician must recertify that the patient
reasonable action to prevent such conduct from            another hospice not arranged for by the patient’s          is terminally ill. See 42 U.S.C. 1395f(a)(7). If the
reoccurring in the future. If appropriate, a hospice      hospice; and (3) care from another provider that           necessary oversight is not performed during the
should take the steps described in section II.G.          duplicates care the hospice is required to furnish.        unlimited periods of care, a hospice may receive
regarding investigations, reporting, and correction       See 42 U.S.C. 1395d(d). It is expected that the            improper reimbursement for services provided to a
of identified problems.                                   hospice provider will work with other providers to         patient who fails to continue to be eligible for the
   20 See OIG report OEI–04–93–00270—‘‘Medicare           coordinate care and ensure appropriate billing if          Medicare Hospice Benefit.
Hospice Beneficiaries: Services and Eligibility.’’        these situations occur. Where a single episode of             29 Examples of arrangements that may run afoul
   21 Hospices may also want to consult the OIG’s         care culminates in an inpatient admission and also         of the anti-kickback statute include practices in
Work Plan when conducting the risk assessment.            involves services by two different providers, the          which a hospice pays a fee to a physician for each
The OIG Work Plan details the various projects the        need for a clear record from both providers is             certification of terminal illness, or provides nursing,
OIG intends to address in the applicable fiscal year.     critical.                                                  administrative, and other services for free or below
It should be noted that the priorities in the Work           25 In other words, knowing denial of needed care        fair market value to physicians, nursing homes,
Plan are subject to modification and revision as the      in order to keep costs low. A hospice is accountable       hospitals and other potential referral sources with
year progresses and it does not represent a complete      for the appropriate allocation and utilization of its                                                   Continued
54036                        Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices

including improper arrangements with                     • Billing for a higher level of care                      • Improper patient solicitation
nursing homes;30                                       than was necessary; 34                                    activities, such as ‘‘patient charting;’ 39
  • Overlap in the services that a                       • Knowingly billing for inadequate or                     • Inadequate management and
nursing home provides, which results in                substandard care;                                         oversight of subcontracted services,
insufficient care provided by a hospice                  • Pressure on a patient to revoke the                   which results in improper billing; 40
to a nursing home resident;31                          Medicare Hospice Benefit when the
  • Improper relinquishment of core                    patient is still eligible for and desires                   • Sales commissions based upon
services and professional management                   care, but the care has become too                         length of stay in hospice; 41
responsibilities to nursing homes,                     expensive for the hospice to deliver; 35                    • Deficient coordination of
volunteers and privately-paid                            • Billing for hospice care provided by                  volunteers; 42
professionals;32                                       unqualified or unlicensed clinical                          • Improper indication of the location
  • Providing hospice services in a                    personnel; 36                                             where hospice services were
nursing home before a written                            • False dating of amendments to                         delivered; 43
agreement has been finalized, if                       medical records; 37
required;33                                              • High-pressure marketing of hospice                    Medicare would otherwise cover. Marketing
                                                       care to ineligible beneficiaries; 38                      statements should not create the perception that the
                                                                                                                 initial terminal prognosis is of limited importance
the intent to influence referrals. See 42 U.S.C.
                                                                                                                 and that hospice benefits may almost routinely be
1320a–7b; 60 FR 40847 (1995). See also discussion      for by (a) the beneficiary or private insurance, or (b)
                                                                                                                 provided over an indefinite time period. Marketing
in section II.A.4. and accompanying notes. In          Medicaid (if the beneficiary is dual eligible); and (2)
                                                                                                                 materials should prominently feature the eligibility
addition, a hospice that offers an incentive to an     the hospice and facility have a written agreement
individual that such hospice knows or should know                                                                requirements for the Medicare Hospice Benefit.
                                                       under which the hospice takes full responsibility
                                                                                                                   39 An example of an improper review of patient
is likely to influence the individual to use a         for the professional management of the individual’s
particular hospice may be subject to civil money       hospice care and the facility agrees to provide room      records is when a hospice arranges with the
penalties. See 42 U.S.C. 1320a–7a(a)(5).               and board. Hospice Medicare Manual § 204.2                administration of a nursing facility to review
   30 The OIG has observed instances of potential         34 Billing for unnecessary services involves           patient records without the patent’s permission,
kickbacks between hospices and nursing homes to        knowingly seeking reimbursement for services that         solely to determine if the patients are eligible for
unlawfully influence the referral of patients. In      ‘‘are not reasonable and necessary for the palliation     hospice care and to solicit hospice referrals.
general, payments by a hospice to a nursing home       or management of terminal illness.’’ See 42 U.S.C.        Hospices should not review medical records of
for ‘‘room and board’’ provided to a Medicaid          1395y(a)(1)(C). Because HCFA establishes different        nursing home patients in an attempt to recruit
hospice patient should not exceed what the nursing     payment amounts for specific categories of covered        patients for hospice services based on their
home otherwise would have received directly from       hospice care, a hospice must ensure that it provides      diagnoses. For instance, see OIG report A–05–96–
Medicaid if the patient had not been enrolled in       services to hospice patients that are reasonable and      00023—‘‘Enhanced Controls Needed to Assure
hospice. (If a patient receiving Medicare hospice      necessary. Otherwise, the hospice may be                  Validity of Medicare Hospice Enrollments.’’
                                                       reimbursed for a higher level of care than was              40 The Balanced Budget Act of 1997, Pub.L. 105–
benefits in a nursing home is also eligible for
Medicaid, Medicaid will pay the hospice at least 95    necessary, e.g., a hospice that provides and bills for    33, amended the Social Security Act so that
percent of the State’s daily nursing home rate, and    continuous care where only routine home care is           hospices will no longer be required to routinely
the hospice is then responsible for paying the         necessary. See also section II.A.3.d. and                 provide all physician services directly by
nursing home for the patient’s room and board.) See    accompanying notes.                                       employing a physician. See 42 U.S.C. 1395x(dd)(2).
Hospice Medicare Manual § 204.2. See also section         35 Fiscal intermediaries have informed the OIG         Because the OIG has received reports of limited
II.A.4. and accompanying notes.                        that hospices rarely offer the reasons supporting the     involvement displayed by contracted physicians, as
   31 There may be some overlap in the services that   revocation of a patient’s Medicare Hospice Benefit.       opposed to hospice-employed physicians, hospices
the nursing homes and hospices provide, thereby        Although a hospice may discharge a patient if it          should consider having oversight mechanisms in
providing one or the other the opportunity to          discovers that the patient is not terminally ill,         place to ensure that hospice physicians are
reduce services and costs. Recent OIG reports found    hospices should not encourage a patient to revoke         thoroughly reviewing re-certification
that residents of certain nursing homes receive        the benefit merely to avoid the obligation to pay for     documentation.
fewer services from their hospice than patients who    hospice services that have become too costly. See           41 Through ORT activities, it was discovered that

receive hospice services in their own homes. Upon      42 CFR 418.28; Hospice Medicare Manual § 210.             hospice sales staff often were paid on commission
review, it was found that many nursing home               36 Medicare conditions of participation require        based on the length of a patient’s stay in hospice.
hospice patients were receiving only basic nursing     that hospices and all hospice employees must be           For example, commission amounts were
and aide visits that were provided by nursing home     licensed in accordance with applicable Federal,           determined by multiplying the total number of days
staff as part of room and board when hospice staff     State and local laws and regulations. 42 CFR              of hospice patient care (patient days) within a sales
were not present. Other additional treatments          418.72.                                                   representative’s territory by a factor that reflected
provided by hospice staff, such as nursing and aide       37 If additions or corrections need to be made to      the level of achievement of assigned sales
visits, were often clearly within the professional     medical records, hospices should make such entries        performance objectives. Such marketing tactics
skills possessed by nursing home staff. The reports    according to standards of practice and applicable         encouraged the recruitment of long-term patients,
found that the nature of services provided by          State law. For example, hospices might correct a          many of whom the review found ineligible for the
hospice staff, while appropriate and efficacious,      medical record by drawing a single line through the       Medicare Hospice Benefit. The OIG recommends
appeared to differ little from services a nursing      erroneous entry, writing ‘‘error’’ next to the entry,     that hospices monitor sales commissions for
home would have provided if the patient was not        initialing and dating the correction and writing the      potential vulnerabilities associated with improper
enrolled in hospice. See OEI report OEI–05–95–         correct information near the entry or writing where       patient recruiting. See OIG report A–05–96–
00250—‘‘Hospice Patients in Nursing Homes;’’ see       the correct information could be found.                   00023—‘‘Enhanced Controls Needed to Assure
also OIG report A–05–96–00023—‘‘Enhanced                  38 Hospices should not utilize prohibited or           Validity of Medicare Hospice Enrollments.’’
Controls Needed to Assure Validity of Medicare         inappropriate conduct (e.g., offer free gifts or            42 Hospices rely heavily on volunteer support. In
Hospice Enrollments.’’ Since hospices receive a        services to patients), designed to maximize business      fact, the Medicare Hospice Benefit is the only
fixed daily payment regardless of the number of        growth and patient retention, to carry out their          Federally funded program that mandates the
services provided or the location of the patient,      initiatives and activities. Also, any marketing           provision of volunteer services. Appropriately,
fewer services may result in higher profits per        information offered by hospices should be clear,          hospices need to recognize and attend to
patient. See also section II.A.3.e. and accompanying   correct, non-deceptive, and fully informative.            compliance issues associated with volunteers (i.e.,
notes.                                                 Through ORT, it was discovered that hospice               screening, training, disciplining, monitoring, etc.)
   32 Certain of the hospice services (i.e.. ‘‘core
                                                       marketing materials had placed considerable                 43 Medicare payments for hospice services are
services’’ such as nursing, medical, social, and       emphasis on the availability of hospice benefits for      made on a prospective basis and adjusted by an area
counseling services) must be provided directly to      long term care patients, while downplaying or             wage index. Hospices must submit claims based on
the patient by employees of the hospice, while         ignoring the terminal illness eligibility requirement.    the geographic location at which the service is
other non-core hospice services may be provided at     See OIG report A–05–96–00023—‘‘Enhanced                   furnished and not the location of the hospice.
fair market value in accordance with contracts with    Controls Needed to Assure Validity of Medicare            Incorrect designation of the place of service for
other providers. However, the hospice must retain      Hospice Enrollments.’’ Hospices should not engage         revenue codes 651 and 652 of the hospice claim
professional management for all contracted             in marketing and sales strategies that offer              may significantly alter reimbursement and result in
services. See 42 CFR 418.80.                           incomplete or inadequate information about                overpayment for services performed (e.g., hospice
   33 A patient who resides in a skilled nursing       Medicare entitlement under the Medicare Hospice           office in a metropolitan area may be reimbursed
facility or nursing facility may elect the Medicare    Benefit to induce beneficiaries to elect hospice and      more than a rural home where the services were
Hospice Benefit if: (1) the residential care is paid   thereby waive aggressive treatment options that           performed).
                              Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices                                                      54037

   • Failure to comply with applicable                   should be assessed by hospices as well                  Classification of Disease (ICD), or
requirements for verbal orders for                       as incorporated into the written policies               revenue code (or successor codes) used
hospice services; 44                                     and procedures and training elements                    by the billing staff should accurately
   • Non-response to late hospice                        developed as part of their compliance                   describe the service that was ordered by
referrals by physicians; 45                              programs.                                               the physician and performed by the
   • Knowing misuse of provider                                                                                  hospice. The documentation necessary
certification numbers, which results in                  3. Eligibility Requirements
                                                                                                                 for accurate billing should be available
improper billing; 46                                        Of the risk areas identified above,                  to billing staff; and
   • Failure to adhere to hospice                        those pertaining to the Medicare                           • Provide that the compensation for
licensing requirements and Medicare                      eligibility requirements have been the                  hospice admission personnel, billing
conditions of participation; 47 and                      frequent subject of investigations and                  department personnel and billing
   • Knowing failure to return                           audits. With respect to the                             consultants should not offer any
overpayments made by Federal health                      reimbursement process, a hospice’s                      financial incentive to bill for hospice
care programs.48 A hospice’s prior                       written policies and procedures should                  care regardless of whether applicable
history of noncompliance with                            reflect and reinforce current Federal                   eligibility criteria for reimbursement is
applicable statutes, regulations and                     health care requirements regarding the                  met.
Federal health care program                              eligibility for Medicare reimbursement.                    The written policies and procedures
requirements may indicate additional                     The policies must create a mechanism                    concerning proper billing should reflect
types of risk areas where the hospice                    for the billing or reimbursement staff to               the current reimbursement principles
may be vulnerable and that may require                   communicate effectively and accurately                  set forth in applicable regulations and
policies and procedures to prevent                       with the clinical staff. Policies and                   should be developed in tandem with
recurrence. 49 Additional risk areas                     procedures should:                                      private payor and organizational
                                                            • Provide for complete and timely                    standards. Particular attention should be
   44 Hospice staff must make an appropriate entry
                                                         documentation of the specific clinical                  paid to issues associated with patient
in the patient’s medical record as soon as they          factors that qualify a patient for the
receive a verbal certification of terminal illness and
                                                                                                                 election of the Medicare Hospice
file written certifications in the medical record. See   Medicare Hospice Benefit; 50                            Benefit, certification of terminal illness
42 CFR 418.22(d). State regulations may require that        • Delineate who has authority to                     of a patient, development and
verbal and telephone orders from physicians should       make entries in the patient record;                     certification of a patient’s
only be accepted by individuals authorized by State         • Emphasize that patients should be                  interdisciplinary plan of care and
law to accept such orders. The OIG recommends            admitted to hospice care only when
that those authorized individuals accepting verbal                                                               reasonableness and necessity of the
and telephone orders should record, date and sign        appropriate documentation supports the                  level of hospice care provided. 51
these orders and the physician(s) who ordered the        applicable reimbursement eligibility                       a. Terminal Illness as an Eligibility
service or treatment should countersign them no          criteria and only when such                             Requirement. For a hospice patient to
later than the time period required by State             documentation is maintained,
regulations.                                                                                                     receive reimbursement for hospice
   45 We have received comments expressing               appropriately organized in a legible                    services under Medicare,52 the patient
concern over late hospice referrals by physicians.       form, and available for audit and                       must be ‘‘terminally ill.’’ 53 Hospices
While the onus of a timely hospice referral may be       review. The documentation should                        should create oversight mechanisms to
on a physician, a hospice should identify untimely       record the activity leading to the record
referrals and provide adequate follow-up to the
                                                                                                                 ensure that the terminal illness of a
physicians. When hospice referrals are late,
                                                         entry and the identity of the individual                Medicare beneficiary is verified 54 and
terminally ill patients may be unnecessarily denied      providing the service. Documentation
access to the Medicare Hospice Benefit, hospices         should be consistent and any                               51 The OIG has undertaken numerous audits,
may have to admit a patient at the costliest stage       discrepancies discussed and reconciled.                 investigations, inspections, and national
of terminal illness, and quality of care may be                                                                  enforcement initiatives aimed at reducing potential
affected because of patients being too far along to
                                                         The hospice should consult with its
                                                                                                                 and actual fraud, abuse and waste. For example, see
receive the optimum benefits of hospice care.            physicians, clinical staff and/or                       OIG report A–05–96–00023—‘‘Enhanced Controls
Hospices need to work closely with physicians to         governing body to establish other                       Needed to Assure Validity of Medicare Hospice
educate and remind them as to the sensitivities and      appropriate documentation guidelines;                   Enrollments;’’ see also OIG Special Fraud Alert—
risks associated with untimely referrals. The OIG
supports appropriate efforts to increase access to
                                                            • Indicate that the diagnosis and                    ‘‘Fraud and Abuse in Nursing Home Arrangements
                                                                                                                 with Hospices’’ (March 1998); OIG Medicare
hospice care for eligible individuals.                   procedure codes for hospice services                    Advisory Bulletin on Hospice Benefits (November
   46 E.g., transfer of a patient from one hospice to    reported on the reimbursement claim                     1995).
another hospice owned by the same company to             should be based on the patient’s clinical                  52 42 U.S.C. 1395d(a) authorizes the
circumvent applicable reimbursement caps.                condition as reflected in the medical                   reimbursement of hospice care.
   47 See 42 CFR 418.50–418.100 for the Medicare                                                                    53 An individual is considered to be ‘‘terminally
conditions of participation that apply to hospices.
                                                         record and other documentation, and
                                                                                                                 ill’’ if the individual has a medical prognosis that
   48 An overpayment is the amount of money a            should comply with all applicable                       the individual’s life expectancy is six months or
hospice may have received in excess of the amount        official coding rules and guidelines.                   less if the illness runs its normal course. 42 CFR
due and payable under a health care program.             Any Health Care Financing                               418.3. However, the fact that a hospice patient lives
Examples of overpayments include, but are not            Administration Common Procedure                         beyond this six month period, in and of itself, does
limited to, instances where a hospice is: (1) Paid                                                               not constitute grounds for a determination that the
twice for the same service either by Medicare or by      Coding System (HCPCS), International                    patient was never eligible for hospice care, or that
Medicare and another insurer; or (2) paid for care                                                               the services provided to the patient were not
rendered to patients who are not terminally ill or       factor in the assessment of whether a compliance        reimbursable by Medicare.
are otherwise ineligible for the Medicare Hospice        program is effective. See United States Sentencing         54 Medical reviews, audits, inspections, and
Benefit. For instance, see Hospice Medicare Manual       Commission Guidelines, Guidelines Manual, 8A1.2,        investigations of hospices have concluded that
§ 307. The OIG strongly recommends that the              Application Note 3(k)(iii).                             hospices have billed Medicare for hospice services
hospice institute procedures to detect overpayments        50 Each patient’s clinical record must contain: (1)   provided to patients who are not terminally ill. For
and to promptly remit such overpayments to the           The initial and subsequent assessments (including       instance, see OIG report OEI–04–93–00270—
affected payor. See 42 U.S.C. 2320a–7b(a)(3), which      hospice admission history, certification, and           ‘‘Medicare Hospice Beneficiaries: Services and
provides criminal penalties for failure to disclose an   recertification); (2) the plan of care; (3)             Eligibility.’’ Through Operation Restore Trust
overpayment. See also 18 U.S.C. 669.                     identification data; (4) consent and authorization      activities and the increased program integrity
   49 ‘‘Recurrence of misconduct similar to that         and election forms; (5) pertinent medical history;      actions by the Regional Home Health Intermediaries
which an organization has previously committed           and (6) complete documentation of all services and      (RHHIs), it was discovered that many beneficiaries
casts doubt on whether it took all reasonable steps      events (including evaluations, treatments, progress     receiving Medicare hospice benefits did not have a
to prevent such misconduct’’ and is a significant        notes, etc.) See CFR 418.74.                                                                       Continued
54038                         Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices

the specific factors qualifying the                      Medicare coverage. These discussions                    procedures should require, at a
patient as terminally ill are properly                   can take place at the beginning of                      minimum, that:
documented.55 Any determinative                          hospice election and during appropriate                    • Before the hospice bills for hospice
assessment of the terminal illness of a                  times throughout a patient’s hospice                    care provided to a patient, the plan of
Medicare beneficiary should be                           care, e.g., at time of recertification.                 care must be established by the hospice
completed prior to billing Medicare for                  Because the Medicare conditions of                      physician and the Interdisciplinary
hospice care. Physicians must certify                    participation require hospices to give all              Group; 62
that the beneficiary was terminally ill at               beneficiaries an informed consent form                     • The plan of care includes: (i) An
the time when a patient was admitted                     that outlines their legal rights before                 assessment of the hospice patient’s
for hospice services as well as at the                   furnishing them with hospice care,58                    needs and identification of services,
beginning of subsequent hospice benefit                  providers can include reminders of                      including the management of discomfort
periods. 56                                              terminal illness requirements in these                  and symptom relief, and (ii) the scope
   The hospice’s written policies and                    forms.                                                  and frequency of services, in detail,
procedures should require, at a                             The OIG recognizes that decisions to                 needed to meet the patient’s and
minimum, that:                                           admit patients to hospices are often not                family’s needs; 63
   • Before a patient is admitted for                    based on medical factors alone. Such                       • The plan of care must be reviewed
hospice services, the hospice physician                  decisions are routinely influenced by                   and updated, at intervals specified in
and attending physician thoroughly                       non-medical factors that would                          the plan, by the attending physician,
review and certify the admitting                         generally be reflected in the plan of                   hospice physician and the
diagnosis and prognosis;                                 care. However, it is important to make                  Interdisciplinary Group; 64
   • A patient’s medical record contain                                                                             • The hospice properly documents
                                                         a distinction between admitting a
complete documentation to support the                                                                            any review or update of a hospice
                                                         patient to a hospice program and
certification made by the hospice                                                                                patient’s plan of care by the attending
                                                         certifying a patient for the Medicare
physician or attending physician; 57                                                                             physician, the hospice physician and
                                                         Hospice Benefit. Based on an individual
   • The patient or lawful representative                hospice’s admission criteria, some
                                                                                                                 Interdisciplinary Group; and 65
is informed of the determination of the                                                                             • The hospice regularly reviews the
                                                         patients may be admitted to hospice                     appropriateness of Interdisciplinary
patient’s life limiting condition;                       care prior to an estimated six months
   • The patient or lawful representative                before death, as long as the hospice is
                                                                                                                 Group services and level of services
is aware that the goal of hospice is                                                                             being provided, patient admission to
                                                         paid fair market value for its services.                hospice, patient length of stay delays
directed toward relief of symptoms,                      Regardless, patients can be certified for
rather than the cure of the underlying                                                                           and specific treatment modalities.
                                                         the Medicare Hospice Benefit only when                     c. Utilization of Hospice Services. A
disease;                                                 it is reasonable to conclude that a
   • A patient’s medical condition and                                                                           hospice is accountable for the
                                                         patient’s life expectancy is six months                 appropriate allocation and utilization of
status is sufficiently reviewed during
                                                         or less if the illness runs its normal                  its resources in order to provide optimal
Interdisciplinary Group meetings; and
   • The clinical progression/status of a                course. In other cases, alternative modes               care consistent with patient and family
patient’s disease and medical condition                  of reimbursement, often provided                        needs.66 Accordingly, a hospice should
are properly documented.                                 through community support, should be                    monitor and evaluate its resource
   Hospices can further ensure                           sought outside the Medicare Hospice                     allocation regularly to identify and
compliance with the terminal illness                     Benefit.                                                resolve problems with the utilization of
requirement through discussions with                        b. Plan of Care. A hospice should take               services, facilities and personnel. To
Medicare beneficiaries and their                         all reasonable steps to ensure that a                   achieve such monitoring, a hospice
families, reminding them that they must                  written plan of care is established and                 should schedule Interdisciplinary
satisfy the regulatory requirements for                  maintained for each individual who                      Group case reviews and conferences,67
terminal illness status to be eligible for               receives hospice services, and that the
                                                         care provided to that individual is in                    62 For Medicare reimbursement purposes, the


terminal illness. In the review of hospice cases         accordance with the plan.59 The plan                    services of the hospice medical director(s) or the
                                                                                                                 physician member of the Hospice Interdisciplinary
between 1992 and 1996, patients did not                  must be established by the patient’s                    Group must be performed by a doctor of medicine
demonstrate significant clinical symptoms of their       attending physician, the hospice                        or osteopathy. See 42 CFR 418.202. The hospice
disease nor notable functional limitations one           physician, and the Interdisciplinary                    should employ reasonable measures to verify that
would expect to see in a person who has a terminal                                                               physicians who establish the hospice plan are
illness as defined by Medicare. See OIG report A–        Group.60 Each patient’s needs should be
                                                                                                                 appropriately licensed and no adverse actions, such
05–96–00023—‘‘Enhanced Controls Needed to                continuously assessed and all treatment                 as criminal conviction, debarment or an exclusion,
Assure Validity of Medicare Hospice Enrollments.’’       options explored and evaluated in the                   have been taken against them.
Findings such as these have prompted a concern           context of the patient’s symptoms. 61                     63 42 CFR 418.58(c).
that some hospices may intentionally misrepresent                                                                  64 See 42 U.S.C. 1395f(a)(7)(B); 42 U.S.C.
a condition as terminal in order to secure Medicare      The hospice’s written policies and
                                                                                                                 1395x(dd)(2)(B).
reimbursement. See also note 23.                                                                                   65 42 CFR 418.58(b).
   55 See 42 CFR 418.22(d). If a question is raised as     58 See   42 CFR 418.62.                                 66 Once a Medicare beneficiary elects hospice
to whether a patient is terminally ill, the hospice        59 See   42 U.S.C. 1395f(a)(7); 42 CFR 418.58.
                                                                                                                 care, the hospice is responsible for furnishing
will be requested to furnish its Medicare fiscal           60 Id.
                                                                                                                 directly, or arranging for, all supplies and services
intermediary with the information necessary to              61 Some ORT audits found that hospice
                                                                                                                 that relate to the beneficary’s terminal condition,
establish that the patient is terminally ill.            physicians, at times, rely partly on referring,         except the services of an attending physician.
   56 See 42 U.S.C. 1395f(a)(7). See also note 28.
                                                         attending physicians. Although the referring            Hospice beneficiaries have the right to receive
   57 In order to verify a patient’s terminal illness,   physician’s opinion can and should be considered        covered medical, social and emotional support
Medicare fiscal intermediaries need to review            as part of the decision making process, the final       services from the hospice directly, or through
physician input and rationale beyond a signature on      determination of hospice eligibility is the             arrangements made by the hospice, and should not
the certification form (e.g., a recent medical history   responsibility of the hospice physician. For            be forced to seek or pay for such care from non­
and physical if the physician does not actually          instance, see OIG report A–04–95–02111. If              hospice providers.
examine the patient prior to admission to hospice;       employees of a hospice believe that services              67 Interdisciplinary Group conferences are
summary of physician review of the history and           ordered by a physician are excessive or otherwise       regularly scheduled periodic meetings of the
physical taken by hospice personnel; or physician        inappropriate, the hospice cannot avoid liability for   Interdisciplinary Group to review the most current
documentation of his or her contribution to the          filing improper claims simply because a physician       patient/family assessment, evaluate needs and
Interdisciplinary Group meetings).                       has certified the need for hospice care.                update the plan of care.
                             Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices                                                  54039

review specific problems that may arise                Because HCFA establishes different                    level of services provided and billed. A
with services provided and use                         payment amounts for specific categories               hospice may choose to incorporate this
objective written criteria or treatment                of covered hospice care, a hospice must               clinical review function into pre­
protocols to guide decisions about the                 ensure that it provides for services to               existing quality assurance mechanisms
utilization of hospice services provided.              hospice patients that are reasonable and              or any other quality assurance processes
Utilization concerns may be an                         necessary. Otherwise, the hospice may                 that are part of its conditions of
indication of a problem with the quality               be reimbursed for a higher level of                   participation.73
or quantity of services provided to a                  services than was necessary, e.g., a                     e. Services Provided to Hospice
hospice patient or demonstrate a more                  hospice that provides and bills for                   Patients in Nursing Homes. Hospice
fundamental concern as to the patient’s                continuous care where only routine                    services may be appropriate and
eligibility for the Medicare Hospice                   home care is necessary.                               beneficial to terminally ill nursing home
Benefit in the first place. Therefore, a                 As a preliminary matter, the OIG                    residents who wish to receive palliative
hospice should implement policies and                  recognizes that licensed health care                  care.74 However, the OIG has found
procedures to identify, assess and                     professionals must be able to order any               hospices that enroll nursing home
rectify any problems associated with:                  services that are appropriate for the care            patients in hospice care are particularly
   • Appropriateness of                                of their patients. However, Medicare                  vulnerable to fraud and abuse.75
Interdisciplinary Group services and                   and other Government and private                      Appropriately, a hospice should set
level of services being provided;                      health care plans will only pay for those             sufficient oversight controls in place to
   • Appropriateness of patient                        services otherwise covered that meet                  ensure that care it provides to nursing
admission to hospice;                                  appropriate standards (i.e., in the case of           home residents is appropriate,
   • Regular review of patient length of               Medicare, ‘‘reasonable and necessary’’                complete, and in accordance with
stay;                                                  services). Providers may not bill for                 applicable laws and Federal health care
   • Delays in admission or in the                     services that do not meet the applicable              program requirements.
provision of Interdisciplinary Group                   standards.70 The hospice is in a unique                  When a resident of a nursing home
services; and                                          position to deliver this information to               elects the Medicare Hospice Benefit, the
   • Specific treatment modalities.                    the health care professionals on its staff            hospice and the nursing home should
   When utilization problems are                       and to the physicians who certify                     jointly establish a coordinated plan of
identified, a hospice should implement                 hospice services. Upon request, a                     care that reflects the hospice
corrective actions and preventative                    hospice must be able to provide                       philosophy, and is based on an
measures that may include ongoing                      documentation, such as physician                      assessment of the individual’s needs
monitoring, changes in the provision of                orders and other patient medical                      and unique living situation in the
services and revisions of policies and                 records, to support the level of services             nursing home. The coordinated plan
procedures.                                            provided to a hospice patient.71 The                  should identify the care and services
   d. Levels of Hospice Care. A hospice’s              compliance officer should ensure that a               that the nursing home will provide to be
compliance program should provide                      clear, comprehensive summary of the                   responsive to the unique needs of the
that it should only seek reimbursement                 definitions for the different levels of               patient/resident and his or her
for services that the hospice has reason               hospice care 72 and applicable rules of               expressed desire for hospice care.
to believe are reasonable and                          the various Government and private                       In general, a hospice should involve
necessary 68 for the palliation or                     plans is prepared, disseminated, and                  nursing home personnel in assisting
management of terminal illness and                     explained to appropriate hospice                      with the administration of a patient’s
were ordered by a physician or other                   personnel.                                            prescribed therapies included in the
appropriately licensed individual. The                   We recommend that hospices                          plan of care only to the extent that the
OIG recommends the hospice’s                           formulate policies and procedures that                hospice would routinely utilize the
compliance program communicate to                      include periodic clinical reviews, both               services of a hospice patient’s family/
physicians authorized to certify patients              prior and subsequent to billing for                   caregiver in implementing the plan of
for hospice care and hospice personnel                 services, as a means of verifying that                care.76 To satisfy the applicable
authorized to admit patients for hospice               patients are receiving only reasonable                Medicare conditions of participation in
care that services will only be paid if                and necessary services. As part of such               the nursing home context, hospices
ordered, certified, covered, reasonable                reviews, hospices should examine the                  should implement policies and
and necessary for the patient, given his               level, frequency, and duration of the                 procedures to ensure that:
                                                       services they perform to determine, in                   • The hospice makes all covered
or her clinical condition.
   Although hospice services are                       consultation with a physician, whether                services available to meet the needs of
reimbursed on a per diem basis and not                 patients’ medical conditions justify the              a patient and does not routinely
per individual component of the                                                                              discharge patients in need of costly
                                                       pain control or acute or chronic symptom
services performed, the payment is                     management that cannot be managed in other
                                                                                                             inpatient care; 77
based upon the level of care provided.69               settings). See 42 CFR 418.302.
                                                          70 Administrative civil money penalties,             73 See  42 CFR 418.66.
                                                                                                               74 See note 33.
  68 See  note 34.                                     assessments, and exclusion, as well as remedies
  69 Payment amounts are determined within each        available under criminal and civil law, including       75 In some cases reviewed in nursing homes, OIG

of the following categories: (1) routine home care     the civil False Claims Act, may be imposed against    medical reviewers have found that while the
day; (2) continuous home care day (patient who         any person who submits a claim for services ‘‘that    hospice benefit may eventually have been
receives hospice care that consists predominantly of   [the] person knows or should know are not             appropriate, at the time of election, patients were
nursing care on a continuous basis at home, is         medically necessary.’’ See, e.g., 42 U.S.C. 1320a–    stable and the electionof hospice was premature.
furnished only during brief periods of crisis and      7a(a).                                                See OEI report OEI–05–95–00250: ‘‘Hospice
only as necessary to maintain the terminally ill          71 Medicare fiscal intermediaries have the         Patients in Nursing Homes;’’ see also OIG report A–
patient at home); (3) inpatient respite care day       authority to require hospices that furnish items or   05–96–00023—‘‘Enhanced Controls Needed to
(hospice patient receives care in an approved          services under the program to submit                  Assure Validity of Medicare Hospice Enrollments.’’
facility on a short-term basis for respite—not more    documentation that substantiates services were        For other examples of potential fraud and abuse in
than five consecutive days at a time); and (4)         actually provided and medically necessary. See        the hospice/nursing home context, see notes 30–33.
general inpatient care day (hospice patient receives   Medicare Intermediary Manual § 3116.1.B.                76 Hospice Certification Manual § 2082.B.

general inpatient care in an inpatient facility for       72 See note 69.                                      77 See 42 CFR 418.50.
54040                        Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices

  • The hospice retains professional                   health care programs claims for patients                  • Hospice referring its patients to a
responsibility for services (e.g., personal            who were referred to the hospice                       nursing home to induce the nursing
care, nursing, medication for relieving                pursuant to contracts or financial                     home to refer its patients to the hospice;
pain control) furnished by nursing home                arrangements that were designed to                        • Hospice providing free (or below
staff; 78                                              induce such referrals in violation of the              fair market value) care to nursing home
  • All the care furnished by a nursing                anti-kickback statute or similar Federal               patients, for whom the nursing home is
home related to the terminal illness or                or State statute or regulation; and                    receiving Medicare payment under the
related conditions is in accordance with                  • The hospice does not offer or                     Medicare Skilled Nursing Facility
the hospice plan of care; 79                           provide gifts, free services, or other                 Benefit, with the expectation that after
  • The hospice and the nursing home                   incentives to patients, relatives of                   the patient exhausts the skilled nursing
communicate with each other when any                   patients, physicians, nursing facilities,              facility benefit, the patient will receive
changes are indicated to the plan of                   hospitals, contractors or other potential              hospice services from that hospice; and
care, and each provider is aware of the                referral sources for the purpose of                       • Hospice providing staff at its
other’s responsibilities in implementing               inducing referrals in violation of the                 expense to the nursing home to perform
the plan of care and complete those                    anti-kickback statute or similar Federal               duties that otherwise would be
respective functions; 80                               or State statute or regulation.87                      performed by the nursing home.
  • Evidence of the coordinated plan of                                                                          Further, the policies and procedures
care is present in the clinical records of                In particular, arrangements between                 should specifically reference and take
both providers; 81                                     nursing homes and hospices are                         into account the OIG’s safe harbor
  • Substantially all the core services                vulnerable to fraud and abuse because                  regulations, which clarify those
are routinely provided directly by                     nursing home operators have control                    payment practices that would be
hospice employees 82 and the hospice                   over the specific hospice or hospices                  immune from prosecution under the
does not rely on employees of the                      they will permit to provide hospice                    anti-kickback statute, as well as the
inpatient facility to furnish needed                   services to their residents.88 Moreover,               OIG’s civil money penalty and
nursing, physician, counseling, or                     hospice patients residing in nursing                   exclusion authorities.92
medical social services; 83 and                        homes may be particularly desirable
  • The hospice keeps its forms and                    from a hospice’s financial standpoint.89               5. Retention of Records
documentation of services separate from                Therefore, with respect to arrangements                   Hospice compliance programs should
the nursing home’s forms and                           with nursing homes, a hospice should                   provide for the implementation of a
documentation.84                                       develop policies and procedures to                     records system. This system should
                                                       prevent the following practices from                   establish policies and procedures
4. Anti-Kickback and Self-Referral                     occurring, which may constitute                        regarding the creation, distribution,
Concerns                                               potential kickbacks:                                   retention, storage, retrieval and
   The hospice should have policies and                   • Hospice offering free or below fair               destruction of documents.93 The two
procedures in place with respect to                    market value goods to induce a nursing                 categories of documents developed
compliance with Federal and State anti­                home to refer patients to the hospice;                 under this system should include: (1) all
kickback statutes and other applicable                    • Hospice paying ‘‘room and board’’                 records and documentation (e.g.,
laws.85 Such policies should provide                   payments to the nursing home in                        medical records, and billing and claims
that:                                                  amounts in excess of what the nursing                  documentation) required either by
   • All of the hospices’s contracts and               home would have received directly from                 Federal or State law for participation in
arrangements with actual or potential                  Medicaid had the patient not been                      Federal health care programs 94 or any
referral sources are reviewed carefully                enrolled in hospice; 90                                other applicable Federal and State laws
for compliance with all applicable
                                                          • Hospice paying above fair market                  and regulations (e.g., document
statutes and regulations; 86                                                                                  retention requirements to maintain State
   • The hospice does not submit or                    value for ‘‘additional’’ non-core services
                                                       that Medicaid does not consider to be                  licensure); and (2) all records necessary
cause to be submitted to the Federal                                                                          to protect the integrity of the hospice’s
                                                       included in its ‘‘room and board’’
  78 See                                               payments to the nursing home; 91                       compliance process and confirm the
           42 CFR 418.56.
  79 See   42 CFR 418.58.
                                                                                                              effectiveness of the program.
   80 Hospice Certification Manual § 2082.A.             87 See  42 U.S.C. 1320a–7b(b); 60 FR 40847 (1995).      The second category includes: (1)
   81 Hospice Certification Manual § 2082.A.             88 While   an exclusive or semi-exclusive            Documentation that employees were
   82 See 42 CFR 418.80.                               arrangement with a nursing home to provide             adequately trained; (2) reports from the
   83 In limited circumstances, HFCA may approve       hospice services to residents can promote efficiency   hospice’s hotline, including the nature
a waiver of the requirement for core nursing           and safety by permitting the nursing home operator
                                                       to coordinate care, screen hospice caregivers, and
                                                                                                              and results of any investigation that was
services to be provided by a hospice that is located
in a non-urbanized area. See 42 CFR 418.83.            maintain control of the premises, such an              conducted; (3) documentation of
   84 A Hospice may consider creating some type of     arrangement may have substantial monetary value        corrective action, including disciplinary
payroll tracking or time study in an effort to         to a hospice. In these circumstances, some nursing     action taken and policy improvements
                                                       home operators and/or hospices may request or
properly differentiate services between the hospice
                                                       offer illegal remuneration to influence a nursing
                                                                                                              introduced, in response to any internal
and the nursing home.                                                                                         investigation or audit; (4) modifications
   85 The hospice’s in-house counsel or compliance     home’s decision to do business with a particular
officer should, among other things, obtain copies of   hospice.
                                                         89 First, a nursing home’s population represents a     92 See 42 CFR 1001.952.
all relevant OIG regulations, Special Fraud Alerts
and advisory opinions (these documents are located     sizeable pool of potential hospice patients. Second,     93 This records system should be tailored to fit the
on the Internet at http://www.dhhs.gov/progorg/        nursing home hospice patients may generate higher      individual needs and financial resources of the
oig), and ensure that the hospice’s policies reflect   gross revenues per patient than patients residing in   hospice.
the guidance provided by the OIG.                      their own homes, because nursing home residents          94 For example, Medicare requires that hospices
   86 Although hospices may contract with              receiving hospice care have, on average, longer        must establish and maintain a clinical record for
physicians, see note 40, hospices and physicians       lengths of stay than hospice patients residing in      every individual receiving care and services. The
mut still tailor such agreements to avoid violation    their own homes.                                       record must be complete, promptly and accurately
                                                         90 See note 30.
of the anti-kickback statute or similar Federal or                                                            documented, readily accessible and systematically
State statute or regulation and to comply with           91 See OIG Special Fraud Alert—‘‘Fraud and           organized to facilitate retrieval. Any entries are to
applicable Medicare conditions of participation.       Abuse in Nursing Home Arrangements with                be made and signed by the person providing the
See 42 CFR 418.56 and 418.86.                          Hospices’’ (March 1998).                               services. See 42 CFR 418.74.
                              Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices                                                        54041

to the compliance program; (5) self­                    point for compliance activities. This                     comply with, pertinent Federal and
disclosures; and (6) the results of the                 responsibility may be the individual’s                    State standards;
hospice’s auditing and monitoring                       sole duty or added to other management                       • Ensuring that independent
efforts.95                                              responsibilities, depending upon the                      contractors and agents who furnish
                                                        size and resources of the hospice and                     physician, nursing, or other health care
6. Compliance as an Element of a
                                                        the complexity of the task. Designating                   services to the clients of the hospice, or
Performance Plan
                                                        a compliance officer with the                             billing services to the hospice, are aware
   Compliance programs should require                   appropriate authority is critical to the                  of the requirements of the hospice’s
that the promotion of, and adherence to,                success of the program, necessitating the                 compliance program with respect to
the elements of the compliance program                  appointment of a high-level official in                   eligibility, billing and marketing, among
be a factor in evaluating the                           the hospice with direct access to the                     other things;
performance of all employees, who                       hospice’s president or CEO, governing
should be periodically trained in new                   body, all other senior management, and                       • Coordinating personnel issues with
compliance policies and procedures. In                  legal counsel.96 The officer should have                  the hospice’s Human Resources/
addition, all managers and supervisors                  sufficient funding and staff to perform                   Personnel office (or its equivalent) to
should:                                                 his or her responsibilities fully.                        ensure that: (i) The National Practitioner
   • Discuss with all supervised                        Coordination and communication are                        Data Bank 98 has been checked with
employees and relevant contractors the                  the key functions of the compliance                       respect to all medical staff and
compliance policies and legal                           officer with regard to planning,                          independent contractors (as
requirements pertinent to their function;               implementing and monitoring the                           appropriate) and (ii) the List of
   • Inform all supervised personnel                    compliance program.                                       Excluded Individuals/Entities 99 has
that strict compliance with these                          The compliance officer’s primary                       been checked with respect to all
policies and requirements is a condition                responsibilities should include:                          employees, medical staff and
of employment; and                                         • Overseeing and monitoring the                        independent contractors (as
   • Disclose to all supervised personnel               implementation of the compliance                          appropriate); 100
that the hospice will take disciplinary                 program; 97                                                  • Assisting the hospice’s financial
action up to and including termination                     • Reporting on a regular basis to the                  management in coordinating internal
for violation of these policies or                      hospice’s governing body, CEO and                         compliance review and monitoring
requirements.                                           compliance committee (if applicable) on                   activities, including annual or periodic
   In addition to making performance of                 the progress of implementation, and                       reviews of departments;
these duties an element in evaluations,
a compliance program should include a
                                                        assisting these components in                                • Independently investigating and
                                                        establishing methods to improve the                       acting on matters related to compliance,
policy for sanctioning managers and                     hospice’s efficiency and quality of
supervisors who fail to adequately                                                                                including the flexibility to design and
                                                        services, and to reduce the hospice’s                     coordinate internal investigations (e.g.,
instruct their subordinates or fail to                  vulnerability to fraud, abuse and waste;
detect noncompliance with applicable                                                                              responding to reports of problems or
                                                           • Periodically revising the program in                 suspected violations) and any resulting
policies and legal requirements, where                  light of changes in the organization’s
reasonable diligence on the part of the                                                                           corrective action (e.g., making necessary
                                                        needs, and in the law and policies and                    improvements to hospice policies and
manager or supervisor would have led                    procedures of Government and private
to the discovery of any problems or                                                                               practices, taking appropriate
                                                        payor health plans;                                       disciplinary action, etc.) with all
violations and given the hospice the                       • Reviewing employees’ certifications
opportunity to correct them earlier.                                                                              hospice departments, subcontracted
                                                        that they have received, read and                         providers and health care professionals
   The OIG believes all hospices should
                                                        understood the standards of conduct;                      under the hospice’s control, and any
ensure that its employees understand
                                                           • Developing, coordinating and                         other agents if appropriate; and
the importance of compliance. If a small
                                                        participating in a multifaceted
hospice does not have a formal                                                                                       • Continuing the momentum of the
                                                        educational and training program that
performance evaluation structure, it                                                                              compliance program and the
                                                        focuses on the elements of the
should informally convey the                                                                                      accomplishment of its objectives long
                                                        compliance program, and seeks to
employee’s compliance responsibilities
                                                        ensure that all relevant employees and
and the importance of these                                                                                          98 The National Practitioner Data Bank is a data
                                                        management are knowledgeable of, and
responsibilities in a written job                                                                                 base that contains information about medical
description or orientation checklist. The                                                                         malpractice payments, sanctions by boards of
                                                           96 The OIG believes that it is not advisable for the   medical examiners or State licensing boards,
applicable documentation should                         compliance function to be subordinate to the              adverse clinical privilege actions and adverse
include a dated signature, with an                      hospice’s general counsel, or comptroller or similar      professional society membership actions. Health
indication that the employee has                        hospice financial officer. Free standing compliance       care entities can have access to this data base to
received it and will be responsible for                 functions help to ensure independent and objective        seek information about their own medical or
                                                        legal reviews and financial analyses of the               clinical staff, as well as prospective employees or
adherence to the responsibilities                       institution’s compliance efforts and activities. By       physician contractors.
expressed.                                              separating the compliance function from the key              99 The List of Excluded Individuals/Entities is an

                                                        management positions of general counsel or chief          OIG-produced report available on the Internet at
B. Designation of a Compliance Officer                  financial officer (where the size and structure of the    http://www.dhhs.gov/progorg/oig. It is updated on
and a Compliance Committee                              hospice make this a feasible option), a system of         a regular basis to reflect the status of health care
                                                        checks and balances is established to more                providers who have been excluded from
1. Compliance Officer                                   effectively achieve the goals of the compliance           participation in the Medicare and Medicaid
                                                        program.                                                  programs. In addition, the General Services
   Every hospice should designate a                        97 For multi-hospice organizations or hospital­        Administration maintains a monthly listing of
compliance officer to serve as the focal                owned hospices, the OIG encourages coordination           debarred contractors on the Internet at http://
                                                        with each hospice owned by the corporation or             www.arnet.gov/epls.
  95 The creation and retention of such documents       hospital through the use of a headquarter’s                  100 The compliance officer may also have to

and reports may raise a variety of legal issues, such   compliance officer, communicating with parallel           ensure that the criminal backgrounds of employees
as patient privacy and confidentiality. These issues    positions in each facility, regional office or business   have been checked depending upon State
are best discussed with legal counsel.                  line, as appropriate.                                     requirements or hospice policy. See note 131.
54042                        Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices

after the initial years of                              those in such positions.103 Once a                   C. Conducting Effective Training and
implementation.101                                      hospice chooses the people that will                 Education
   The compliance officer must have the                 accept the responsibilities vested in                   The proper education and training of
authority to review all documents and                   members of the compliance committee,                 corporate officers, managers, employees,
other information that are relevant to                  the hospice needs to train these                     volunteers, nurses, physicians, and
compliance activities, including, but not               individuals on the policies and                      other health care professionals, and the
limited to, patient medical records,                    procedures of the compliance program,                continual retraining of current
billing records, and records concerning                 as well as how to discharge their duties.            personnel at all levels, are significant
the marketing efforts of the facility and                  The committee’s functions should                  elements of an effective compliance
the hospice’s arrangements with other                   include:                                             program. As part of their compliance
parties, including employees,                              • Analyzing the legal requirements
                                                                                                             programs, hospices should require
physicians, professionals on staff,                     with which it must comply, and specific
                                                                                                             personnel to attend specific training on
relevant independent contractors,                       risk areas;
                                                                                                             a periodic basis, including appropriate
                                                           • Assessing existing policies and
suppliers, agents, and supplemental                                                                          training in Federal and State statutes,
                                                        procedures that address these risk areas
staffing entities. This policy enables the                                                                   regulations, and guidelines, and the
                                                        for possible incorporation into the
compliance officer to review contracts                                                                       policies of private payors, and training
                                                        compliance program;
and obligations (seeking the advice of                     • Working with appropriate hospice                in corporate ethics, which emphasizes
legal counsel, where appropriate) that                  departments to develop standards of                  the organization’s commitment to
may contain referral and payment                        conduct and policies and procedures to               compliance with these legal
provisions that could violate the anti­                 promote compliance with legal and                    requirements and policies.104
kickback statute and other legal or                                                                             These training programs should
                                                        ethical requirements;
regulatory requirements.                                   • Recommending and monitoring, in                 include sessions highlighting the
   A small hospice may not have the                     conjunction with the relevant                        organization’s compliance program,
need or the resources to hire or appoint                departments, the development of                      summarizing fraud and abuse laws,
a full time compliance officer. However,                internal systems and controls to carry               Federal health care program
each hospice should have a person in its                out the organization’s standards,                    requirements, claim development and
organization (this person may have                      policies, and procedures as part of its              submission processes, patient rights,
other functional responsibilities) who                  daily operations;                                    and marketing practices that reflect
can oversee the hospice’s compliance                       • Determining the appropriate                     current legal and program standards.
with applicable statutes, rules,                        strategy/approach to promote                         The organization must take steps to
regulations, and policies. The structure                compliance with the program and                      communicate effectively its standards
and comprehensiveness of the hospice’s                  detection of any potential violations,               and procedures to all affected
compliance program will help                            such as through hotlines and other fraud             employees, physicians, independent
determine the responsibilities of each                  reporting mechanisms;                                contractors, and other significant agents,
individual compliance officer.                             • Developing a system to solicit,                 e.g., by requiring participation in
                                                        evaluate, and respond to complaints and              training programs and disseminating
2. Compliance Committee                                 problems; and                                        publications that explain specific
  The OIG recommends that a                                • Monitoring internal and external                requirements in a practical manner.105
compliance committee be established to                  audits and investigations for the                    Managers of specific departments or
advise the compliance officer and assist                purpose of identifying troublesome                   groups can assist in identifying areas
in the implementation of the                            issues and deficient areas experienced               that require training and in carrying out
compliance program.102 When                             by the hospice, and implementing                     such training.106 Training instructors
                                                        corrective and preventive action.                    may come from outside or inside the
developing an appropriate team of
                                                           The committee may also address other              organization, but must be qualified to
people to serve as the hospice’s
                                                        functions as the compliance concept                  present the subject matter involved and
compliance committee, including the
                                                        becomes part of the overall hospice                  experienced enough in the issues
compliance officer, a hospice should
                                                        operating structure and daily routine.               presented to adequately field questions
consider a variety of skills and
                                                           The compliance committee is an                    and coordinate discussions among those
personality traits that are expected from
                                                        extension of the compliance officer and              being trained. New employees should be
                                                        provides the organization with                       trained early in their employment.107
   101 Periodic on-site visits of hospice operations,

bulletins with compliance updates and reminders,
                                                        increased oversight. The OIG recognizes
distribution of audiotapes or videotapes on different   that small hospices may not have the                    104 Specific compliance training should

risk areas, lectures at management and employee         resources or the need to establish a                 complement any ‘‘inservice’’ training sessions that
meetings, circulation of recent health care articles                                                         a hospice may regularly schedule to provide an
                                                        compliance committee. However, when                  ongoing program for the training of employees as
covering fraud and abuse, and innovative changes
to compliance training are various examples of
                                                        potential problems are identified, the               required by its conditions of participation. 42 CFR
approaches and techniques the compliance officer        OIG recommends the small hospices                    418.64.
can employ for the purpose of ensuring continued        supplier create a ‘‘taskforce,’’ if                     105 Some publications, such as OIG’s Special

interest in the compliance program and the              appropriate, to address the problem.                 Fraud Alerts, audit and inspection reports, and
hospice’s commitment to its policies and                                                                     advisory opinions, as well as the annual OIG work
principles.
                                                        The members of the taskforce may vary                plan, are readily available from the OIG and could
   102 The compliance committee benefits from           depending upon the issue.                            be the basis for standards, educational courses, and
having the perspectives of individuals with varying                                                          programs for appropriate hospice employees.
                                                                                                                106 Significant variations in the functions and
responsibilities in the organization, such as              103 A health care provider should expect its

operations, finance, audit, human resources, and        compliance committee members and compliance          responsibilities of different departments or groups
clinical management (e.g., hospice physician), as       officer to demonstrate high integrity, good          may create the need for training materials that are
well as employees and managers of key operating         judgment, assertiveness, and an approachable         tailored to compliance concerns associated with
units. These individuals should have the requisite      demeanor, while eliciting the respect and trust of   particular operations and duties.
seniority and comprehensive experience within           employees of the hospice and having significant         107 Certain positions, such as those that involve

their respective departments to implement any           professional experience working with billing,        the billing of hospice services or patient admission
necessary changes to hospice policies and               clinical records, documentation, and auditing        to hospice care, create a greater organizational legal
procedures as recommended by the committee.             principles.                                          exposure, and therefore require specialized training.
                               Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices                                                     54043

Training programs and materials should                   employment responsibilities.111 For                       should also develop independent
be designed to take into account the                     example, for certain employees involved                   reporting paths for an employee to
skills, experience, and knowledge of the                 in the hospice admission functions,                       report fraud, waste, or abuse so that
individual trainees. The compliance                      periodic training in applicable                           employees can feel comfortable
officer should document any formal                       reimbursement coverage and eligibility                    reporting outside the normal chain of
training undertaken by the hospice as                    requirements should be required. In                       command and supervisors or other
part of the compliance program.                          hospices with high employee turnover,                     personnel cannot divert such reports.114
   A variety of teaching methods, such                   periodic training updates are critical.                     The OIG encourages the establishment
as interactive training, and training in                    The OIG recognizes that the format of                  of a procedure so that hospice personnel
several different languages, particularly                the training program will vary                            may seek clarification from the
where a hospice has a culturally diverse                 depending upon the resources of the                       compliance officer or members of the
staff, should be implemented so that all                 hospice. For example, a small hospice                     compliance committee in the event of
affected employees are knowledgeable                     may want to create a video for each type                  any confusion or question with regard to
of the institution’s standards of conduct                of training session so new employees                      a hospice policy, practice, or procedure.
and procedures for alerting senior                       can receive training in a timely                          Questions and responses should be
management to problems and                               manner.112                                                documented and dated and, if
concerns.108 In addition to specific                        The OIG recommends that attendance                     appropriate, shared with other staff so
training in the risk areas identified in                 and participation in training programs                    that standards, policies, practices, and
section II.A.2, above, primary training                  be made a condition of continued                          procedures can be updated and
for appropriate corporate officers,                      employment and that failure to comply                     improved to reflect any necessary
managers, and other hospice staff                        with training requirements should result                  changes or clarifications. The
should include such topics as:                           in disciplinary action, including                         compliance officer may want to solicit
                                                         possible termination, when such failure                   employee input in developing these
   • Government and private payor
                                                         is serious. Adherence to the provisions                   communication and reporting systems.
reimbursement principles;
                                                         of the compliance program, such as
   • General prohibitions on paying or                                                                             2. Hotlines and Other Forms of
                                                         training requirements, should be a factor
receiving remuneration to induce                         in the annual evaluation of each                          Communication
referrals;                                               employee. The hospice should retain                          The OIG encourages the use of
   • Improper alterations to clinical                    adequate records of its training of                       hotlines,115 e-mails, written memoranda,
records; 109                                             employees, including attendance logs                      newsletters, suggestion boxes, and other
   • Providing hospice services with                     and material distributed at training                      forms of information exchange to
proper authorization;                                    sessions.                                                 maintain these open lines of
   • Patient rights and patient                                                                                    communication.116 If the hospice
education;                                               D. Developing Effective Lines of                          establishes a hotline, the telephone
   • Compliance with Medicare                            Communication                                             number should be made readily
conditions of participation; and                         1. Access to the Compliance Officer                       available to all employees and
   • Duty to report misconduct.                             An open line of communication                          independent contractors, possibly by
   Clarifying and emphasizing these                      between the compliance officer and                        circulating the number on wallet cards
areas of concern through training and                    hospice employees is equally important                    or conspicuously posting the telephone
educational programs are particularly                    to the successful implementation of a                     number in common work areas.117
relevant to a hospice’s marketing and                    compliance program and the reduction                      Employees should be permitted to
financial personnel, in that the pressure                of any potential for fraud, abuse, and                    report matters on an anonymous basis.
to meet business goals may render these                  waste. Written confidentiality and non­                   Matters reported through the hotline or
employees vulnerable to engaging in                      retaliation policies should be developed                  other communication sources that
prohibited practices.                                    and distributed to all employees to                       suggest substantial violations of
   The OIG suggests that all relevant                    encourage communication and the                           compliance policies, Federal health care
levels of personnel be made part of                      reporting of incidents of potential                       program requirements, regulations, or
various educational and training                         fraud.113 The compliance committee                        statutes should be documented and
programs of the hospice.110 Employees                                                                              investigated promptly to determine their
should be required to have a minimum                       111 Currently, the OIG is monitoring a significant      veracity. A log should be maintained by
number of educational hours per year,                    number of corporate integrity agreements that             the compliance officer that records such
as appropriate, as part of their                         require many of these training elements. The OIG
                                                         usually requires a minimum of one to three hours             114 Hospices can also consider rewarding
                                                         annually for basic training in compliance areas.          employees for appropriate use of established
  108 Post-training  tests can be used to assess the     Additional training is required for specialty fields      reporting systems.
success of training provided and employee                such as billing and marketing.                               115 The OIG recognizes that it may not be
comprehension of the hospice’s policies and                112 If videos are utilized for compliance training,
                                                                                                                   financially feasible for a smaller hospice to
procedures.                                              the OIG suggests that a hospice make an individual        maintain a telephone hotline dedicated to receiving
   109 This practice involves the hospice altering the   available to field questions from video trainees. In      calls about compliance issues. These companies
attending physician’s or other authorized                addition, those hospices that use video training          may want to explore alternative methods, e.g.,
physician’s diagnosis in order to receive                should strongly consider requiring trainees to            outsourcing the hotline or establishing a written
reimbursement for hospice care. A hospice should         complete post training comprehension tests to             method of confidential disclosure.
not claim the patient has a particular medical           ensure that trainees actively paid attention to the          116 In addition to methods of communication used
condition in order to qualify for reimbursement for      video.                                                    by current employees, an effective employee exit
which it would not otherwise qualify.                      113 The OIG believes that whistleblowers should         interview program could be designed to solicit
   110 In addition, where feasible, the OIG              be protected against retaliation, a concept embodied      information from departing employees regarding
recommends that a hospice afford outside                 in the provisions of the False Claims Act. See 31         potential misconduct and suspected violations of
contractors the opportunity to participate in the        U.S.C. 3730(h). In many cases, employees sue their        hospice policy and procedures.
hospice’s compliance training and educational            employers under the False Claims Act’s qui tam               117 Hospices should also post in a prominent,

programs, or develop their own programs that             provisions out of frustration because of the              available area the HHS–OIG Hotline telephone
complement the hospice’s standards of conduct,           company’s failure to take action when a                   number, 1–800–447–8477 (1–800–HHS–TIPS), in
compliance requirements, and other rules and             questionable, fraudulent, or abusive situation was        addition to any company hotline number that may
practices.                                               brought to the attention of senior corporate officials.   be posted.
54044                         Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices

calls, including the nature of any                      noncompliance, and the risk factors that               the hospice should take prompt steps to
investigation and its results.118 Such                  a particular hospice confronts.                        correct the problem. Any overpayments
information should be included in                          Although many monitoring                            discovered as a result of such deviations
reports to the governing body, the CEO,                 techniques are available, one effective                should be returned promptly to the
and compliance committee.119 Further,                   tool to promote and ensure compliance                  affected payor, with appropriate
while the hospice should always strive                  is the performance of regular, periodic                documentation and a sufficiently
to maintain the confidentiality of an                   compliance audits by internal or                       detailed explanation of the reason for
employee’s identity, it should also                     external auditors who have expertise in                the refund. 123
explicitly communicate that there may                   Federal and State health care statutes,                   An effective compliance program
be a point where the individual’s                       regulations, and Federal health care                   should also incorporate periodic (at
identity may become known or may                        program requirements. The audits                       least annual) reviews of whether the
have to be revealed in certain instances.               should focus on the hospice’s programs                 program’s compliance elements have
   The OIG recognizes that assertions of                or divisions, including external                       been satisfied, e.g., whether there has
fraud and abuse by employees who may                    relationships with third-party                         been appropriate dissemination of the
have participated in illegal conduct or                 contractors, specifically those with                   program’s standards, training, ongoing
committed other malfeasance raise                       substantive exposure to Government                     educational programs, and disciplinary
numerous complex legal and                              enforcement actions. At a minimum,                     actions, among other elements.124 This
management issues that should be                        these audits should be designed to                     process will verify actual conformance
examined on a case-by-case basis. The                   address the hospice’s compliance with                  by all departments with the compliance
compliance officer should work closely                  laws governing kickback arrangements,                  program and may identify the necessity
with legal counsel, who can provide                     claim development and submission,                      for improvements to be made to the
guidance regarding such issues.                         reimbursement, eligibility, and                        compliance program, as well as the
   The OIG recognizes that protecting                   marketing. The audits and reviews                      hospice’s operations. Such reviews
anonymity may be infeasible for small                   should inquire into the hospice’s                      could support a determination that
hospices. However, the OIG believes all                 compliance with the Medicare                           appropriate records have been created
hospice employees, when seeking                         conditions of participation and the                    and maintained to document the
answers to questions or reporting                       specific rules and policies that have                  implementation of an effective
potential instances of fraud and abuse,                 been the focus of particular attention on              program.125 However, when monitoring
should know to whom to turn to for                      the part of the Medicare fiscal                        discloses that deviations were not
attention and should be able to do so                   intermediaries or carriers, and law                    detected in a timely manner due to
without fear of retribution.                            enforcement, as evidenced by                           program deficiencies, proper
E. Auditing and Monitoring                              educational and other communications                   modifications must be implemented.
                                                        from OIG Special Fraud Alerts, OIG                     Such evaluations, when developed with
   An ongoing evaluation process is
                                                        audits and evaluations, and law                        the support of management, can help
critical to a successful compliance
                                                        enforcement’s initiatives.121 In addition,             ensure compliance with the hospice’s
program. The OIG believes that an
                                                        the hospice should focus on any areas                  policies and procedures.
effective program should incorporate
                                                        of concern that are specific to the                       As part of the review process, the
thorough monitoring of its
                                                        individual hospice and have been                       compliance officer or reviewers should
implementation and regular reporting to
                                                        identified by any entity, whether                      consider techniques such as:
senior hospice or corporate officers.120
Compliance reports created by this
                                                        Federal, State or internal.                               • Visits and interviews of patients at
                                                           Monitoring techniques may include                   their residences;
ongoing monitoring, including reports
                                                        sampling protocols that permit the                        • Analysis of utilization patterns;
of suspected noncompliance, should be
                                                        compliance officer to identify and                        • Testing clinical and hospice
maintained by the compliance officer
                                                        review variations from an established                  admission staff on their knowledge of
and shared with the hospice’s senior
                                                        baseline. 122 Significant variations from              reimbursement coverage criteria (e.g.,
management and the compliance
                                                        the baseline should trigger a reasonable               present hypothetical scenarios of
committee. The extent and frequency of
                                                        inquiry to determine the cause of the                  situations experienced in daily practice
the audit function may vary depending
                                                        deviation. If the inquiry determines that              and assess responses);
on factors such as the size and available
                                                        the deviation occurred for legitimate,                    • Assessment of existing
resources, prior history of
                                                        explainable reasons, the compliance                    relationships with physicians, nursing
  118 To efficiently and accurately fulfill such an
                                                        officer and hospice management may                     homes,126 hospitals, and other potential
obligation, the hospice should create an intake form    want to limit any corrective action or                 referral sources;
for all compliance issues identified through            take no action. If it is determined that                  • Unannounced mock audits and
reporting mechanisms. The form could include            the deviation was caused by improper
information concerning the date that the potential
                                                                                                               investigations;
problem was reported, the internal investigative
                                                        procedures, misunderstanding of rules,
methods utilized, the results of the investigation,     including fraud and systemic problems,                    123 In addition, when appropriate, as referenced in

the corrective action implemented, the disciplinary                                                            section G.2, below, reports of fraud or systemic
measures imposed, and any identified                      121 See also section II.A.2.                         problems should also be made to the appropriate
overpayments and monies returned.                         122 The OIG recommends that when a compliance        governmental authority.
  119 Information obtained over the hotline may                                                                   124 One way to assess the knowledge, awareness,
                                                        program is established in a hospice, the compliance
provide valuable insight into management practices      officer, with the assistance of department managers,   and perceptions of the hospice’s employees is
and operations, whether reported problems are           should take a ‘‘snapshot’’ of their operations from    through the use of a validated survey instrument
actual or perceived.                                    a compliance perspective. This assessment can be       (e.g. employee questionnaires, interviews, or focus
  120 Even when a hospice or group of hospices is       undertaken by outside consultants, law or              groups).
                                                                                                                  125 Such records should include, but not be
owned by a larger corporate entity, the regular         accounting firms, or internal staff, with
auditing and monitoring of the compliance               authoritative knowledge of health care compliance      limited to, logs of horline calls, logs of training
activities of an individual hospice must be a key       requirements. This ‘‘snapshot,’’ often used as part    attendees, training agenda meaterials, and
feature in any annual review. Appropriate reports       of benchmarking analyses, becomes a baseline for       summaries of corrective action taken and
on audit findings should be periodically provided       the compliance officer and other managers to judge     improvments make to hospice policies as a result
and explained to a parent organization’s senior staff   the hospice’s progress in reducing or eliminating      of compliance activities.
and officers.                                           potential areas of vulnerability.                         126 See section II.A.3.e.
                             Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices                                 54045

   • Reevaluation of deficiencies cited              findings to correct identified problems       procedures, Federal health care program
in past surveys for Medicare conditions	             and revise hospice policies if necessary      requirements, or Federal and State laws,
of participation;                                    to improve patient care,129 the OIG           or those who have otherwise engaged in
   •	 Examination of hospice complaint               believes that a hospice’s management          wrongdoing, which have the potential to
logs;                                                should take whatever steps are                impair the hospice’s status as a reliable,
   • Checking personnel records to                   necessary to correct identified               honest, and trustworthy health care
determine whether any individuals who                compliance problems and prevent them          provider.
have been reprimanded for compliance                 from recurring. In certain cases,                The OIG believes that the compliance
issues in the past are among those                   subsequent reviews or studies would be        program should include a written policy
currently engaged in improper conduct;               advisable to ensure that the                  statement setting forth the degrees of
   • Questionnaires developed to solicit             recommended corrective actions have           disciplinary actions that may be
impressions of a broad cross-section of              been implemented successfully.                imposed upon corporate officers,
the hospice’s employees and staff;                      While conducting its monitoring and        managers, employees, physicians, and
   • Evaluation of the timeliness of                 auditing efforts, as well as its daily        other health care professionals for
physician referrals and physician                    operations, a hospice should document         failing to comply with the hospice’s
signatures for hospice certifications;               its efforts to comply with applicable         standards and policies and applicable
   • Reviews of clinical documentation               statutes, regulations, and Federal health     statutes and regulations. Intentional or
(e.g., terminal illness certification, plan          care program requirements. For                reckless noncompliance should subject
of care, nursing notes, etc.), financial             example, where a hospice, in its efforts      transgressors to significant sanctions.
records, and other source documents                  to comply with a particular statute,          Such sanctions could range from oral
that support claims for reimbursement;               regulation or program requirement,            warnings to suspension, termination, or
   • Validation of qualifications of                 requests advice from a Government             financial penalties, as appropriate. Each
hospice physicians and other hospice                 agency (including a Medicare fiscal           situation must be considered on a case­
staff, including verification of                     intermediary or carrier) charged with         by-case basis to determine the
applicable state license renewals;                   administering a Federal health care           appropriate sanction. The written
   • Evaluation of written materials and             program, the hospice should document          standards of conduct should elaborate
documentation outlining the hospice’s                and retain a record of the request and        on the procedures for handling
policies and procedures; and                         any written or oral response. This step       disciplinary problems and those who
   • Trend analyses, or longitudinal                 is extremely important if the hospice         will be responsible for taking
studies, that uncover deviations,                    intends to rely on that response to guide     appropriate action. Some disciplinary
positive or negative, in specific areas              it in future decisions, actions, or claim     actions can be handled by department
over a given period.                                 reimbursement requests or appeals. A          or agency managers, while others may
   The reviewers should:                             log of oral inquiries between the hospice     have to be resolved by a senior hospice
   • Have the qualifications and                     and third parties will help the               administrator. Disciplinary action may
experience necessary to adequately                   organization document its attempts at         be appropriate where a responsible
identify potential issues with the subject           compliance. In addition, the hospice          employee’s failure to detect a violation
matter that is reviewed;                             agency should maintain records relevant       is attributable to his or her negligence or
   • Be objective and independent of                 to the issue of whether its reliance was      reckless conduct. Personnel should be
line management to the extent                        ‘‘reasonable’’ and whether it exercised       advised by the hospice that disciplinary
reasonably possible; 127                             due diligence in developing procedures        action will be taken on a fair and
   • Have access to existing audit and               and practices to implement the advice.        equitable basis. Managers and
health care resources, relevant                         The extent of a hospice’s audit should     supervisors should be made aware that
personnel, and all relevant areas of                 depend on the hospice’s identified risk       they have a responsibility to discipline
operation;                                           areas and resources. If the hospice           employees in an appropriate and
   • Present written evaluative reports              comes under Government scrutiny in            consistent manner.
on compliance activities to the CEO,                 the future, the Government will assess           It is vital to publish and disseminate
governing body, and members of the                   whether or not the hospice developed a        the range of disciplinary standards for
compliance committee on a regular                    comprehensive audit based upon                improper conduct and to educate
basis, but no less often than annually;              identified risk areas and resources. If the   officers and other hospice employees
and                                                  Government determines the hospice             regarding these standards. The
   • Specifically identify areas where               failed to develop an adequate audit           consequences of noncompliance should
corrective actions are needed.                       program, given its resources, the             be consistently applied and enforced, in
   Just as a hospice is required by its              Government will be less likely to afford      order for the disciplinary policy to have
conditions of participation to conduct               the hospice favorable treatment under         the required deterrent effect. All levels
‘‘an ongoing, comprehensive, integrated,             the Federal Sentencing Guidelines.            of employees should be potentially
self-assessment of the quality and                   F. Enforcing Standards Through Well­          subject to the same types of disciplinary
appropriateness of care provided,’’ 128              Publicized Disciplinary Guidelines            action for the commission of similar
the OIG believes that a hospice should                                                             offenses. The commitment to
monitor its compliance with the Federal              1. Discipline Policy and Actions              compliance applies to all personnel
health care program requirements in the                 An effective compliance program            levels within a hospice. The OIG
same fashion. Furthermore, just as a                 should include guidance regarding             believes that corporate officers,
hospice is required by its conditions of             disciplinary action for corporate             managers, supervisors, clinical staff, and
participation to use its quality assurance           officers, managers, employees, and other      other health care professionals should
                                                     health care professionals who have            be held accountable for failing to
  127 The OIG recognizes that hospices that are
                                                     failed to comply with the hospice’s           comply with, or for the foreseeable
small in size and have limited resources may not
be able to use internal reviewers who are not part   standards of conduct, policies and            failure of their subordinates to adhere
of line management or hire outside reviewers.                                                      to, the applicable standards, laws, and
  128 42 CFR 418.66.                                  129 Id.                                      procedures.
54046                         Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices

2. New Employee Policy                                   G. Responding to Detected Offenses and                      Depending upon the nature of the
                                                         Developing Corrective Action Initiatives                 alleged violations, an internal
  For all new employees who have                                                                                  investigation will probably include
discretionary authority to make                          1. Violations and Investigations
                                                                                                                  interviews and a review of relevant
decisions that may involve compliance                       Violations of a hospice’s compliance                  documents. Some hospices should
with the law or compliance oversight,                    program, failures to comply with                         consider engaging outside counsel,
hospices should conduct a reasonable                     applicable Federal or State law, and                     auditors or health care experts to assist
and prudent background investigation,                    other types of misconduct threaten a                     in an investigation. Records of the
including a reference check,130 as part of               hospice’s status as a reliable, honest and               investigation should contain
every such employment application.                       trustworthy provider capable of                          documentation of the alleged violation,
The application should specifically                      participating in Federal health care                     a description of the investigative
require the applicant to disclose any                    programs. Detected but uncorrected                       process (including the objectivity of the
criminal conviction,131 as defined by 42                 misconduct can seriously endanger the                    investigators and methodologies
                                                         mission, reputation and legal status of                  utilized), copies of interview notes and
U.S.C. 1320a–7(i), or exclusion action.
                                                         the hospice. Consequently, upon reports                  key documents, a log of the witnesses
Pursuant to the compliance program,
                                                         or reasonable indications of suspected                   interviewed and the documents
hospice policies should prohibit the                     noncompliance, it is important that the
employment of individuals who have                                                                                reviewed, the results of the
                                                         compliance officer or other management                   investigation, e.g., any disciplinary
been recently convicted of a criminal                    officials immediately investigate the                    action taken, and the corrective action
offense related to health care 132 or who                conduct in question to determine                         implemented. While any action taken as
are listed as debarred, excluded, or                     whether a material violation of                          the result of an investigation will
otherwise ineligible for participation in                applicable law or the requirements of                    necessarily vary depending upon the
Federal health care programs.133 In                      the compliance program has occurred,                     hospice and the situation, hospices
addition, pending the resolution of any                  and if so, take decisive steps to correct                should strive for some consistency by
criminal charges or proposed debarment                   the problem.135 As appropriate, such                     utilizing sound practices and
or exclusion, the OIG recommends that                    steps may include an immediate referral                  disciplinary protocols.138 Further, after a
an individual who is the subject of such                 to criminal and/or civil law enforcement                 reasonable period, the compliance
actions should be removed from direct                    authorities, a corrective action plan,136 a              officer should review the circumstances
responsibility for or involvement in any                 report to the Government 137 and the                     that formed the basis for the
Federal health care program. That                        return of any overpayments, if                           investigation to determine whether
individual’s salary should not be paid in                applicable.                                              similar problems have been uncovered
whole or part, directly or indirectly, by                   Where potential fraud or False Claims                 or modifications of the compliance
Federal health care programs or                          Act liability is not involved, the OIG                   program are necessary to prevent and
                                                         recommends that normal repayment                         detect other inappropriate conduct or
otherwise with Federal funds.134 With
                                                         channels should be used for returning                    violations.
regard to current employees or                           overpayments to the Government as
independent contractors, if resolution of                                                                            If an investigation of an alleged
                                                         they are discovered. However, even if                    violation is undertaken and the
the matter results in conviction,                        the overpayment detection and return
debarment or exclusion, the hospice                                                                               compliance officer believes the integrity
                                                         process is working and is being                          of the investigation may be at stake
should terminate its employment or                       monitored by the hospice’s audit or                      because of the presence of employees
other contract arrangement with the                      billing divisions, the OIG still believes                under investigation, those subjects
individual or contractor.                                that the compliance officer needs to be                  should be removed from their current
                                                         made aware of these overpayments,                        work activity until the investigation is
  130 See  note 99.                                      violations or deviations that may reveal                 completed (unless an internal or
  131 States may mandate, and many hospices              trends or patterns indicative of a                       Government-led undercover operation
voluntarily conduct, criminal background checks          systemic problem.
for prospective employees of hospices.                                                                            known to the hospice is in effect). In
Identification of a criminal background of an              135 Instances of noncompliance must be
                                                                                                                  addition, the compliance officer should
applicant, who may have been recently convicted
                                                         determined on a case-by-case basis. The existence,
                                                                                                                  take appropriate steps to secure or
of serious crimes that relate to the proposed            or amount, of a monetary loss to a health care           prevent the destruction of documents or
employment duties, could be grounds for denying          program is not solely determinative of whether or        other evidence relevant to the
employment. Further, criminal background                 not the conduct should be investigated and reported
screening may deter those individuals with
                                                                                                                  investigation. If the hospice determines
                                                         to governmental authorities. In fact, there may be
criminal intent from entering the field of hospice.      instances where there is no readily identifiable         that disciplinary action is warranted, it
   132 Because providers of hospice care have            monetary loss at all, but corrective action and          should be prompt and imposed in
frequent, relatively unsupervised access to              reporting are still necessary to protect the integrity   accordance with the hospice’s written
potentially vulnerable people and their property, a      of the applicable program and its beneficiaries, e.g.,   standards of disciplinary action.
hospice should also strictly scrutinize whether it       where services required by a plan of care were not
should employ individuals who have been                  provided.                                                2. Reporting
                                                           136 Advice from the hospice’s in-house counsel or
convicted of crimes of neglect, violence, theft or
                                                         an outside law firm may be sought to determine the          If the compliance officer, compliance
dishonesty, or financial misconduct.
   133 Likewise, hospice compliance programs             extent of the hospice’s liability and to plan the        committee, or management official
                                                         appropriate course of action.                            discovers credible evidence of
should establish standards prohibiting the                 137 The OIG currently maintains a provider self­
execution of contracts with companies that have                                                                   misconduct from any source and, after
                                                         disclosure protocol that encourages providers to
been recently convicted of a criminal offense
                                                         report suspected fraud. The concept of voluntary         a reasonable inquiry, has reason to
related to health care or that are listed by a Federal
                                                         self-disclosure is premised on a recognition that the
agency as debarred, excluded or otherwise                Government alone cannot protect the integrity of           138 The parameters of a claim review subject to an
ineligible for participation in Federal health care      the Medicare and other Federal health care               internal investigation will depend on the
programs. See note 99.                                   programs. Health care providers must be willing to       circumstances surrounding the issue(s) identified.
   134 Prospective employees who have been
                                                         police themselves, correct underlying problems and       By limiting the scope of an internal audit to current
officially reinstated into the Medicare and Medicaid     work with the Government to resolve these matters.       billing, a hospice may fail to discover major
programs by the OIG may be considered for                The self-disclosure protocol can be located on the       problems and deficiencies in operations, as well as
employment upon proof of such reinstatement.             OIG’s website at http://www.dhhs.gov/progorg/oig         be subject to certain liability.
                              Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices                                                     54047

believe that the misconduct may violate                  care programs or their beneficiaries. If               well as any other type of health care
criminal, civil, or administrative law,                  the investigation ultimately reveals that              provider, should consider the attributes
then the hospice should promptly report                  criminal, civil or administrative                      of each individual element of its
the existence of misconduct to the                       violations have occurred, the                          compliance program to assess the
appropriate Federal and State                            appropriate Federal and State                          program’s ‘‘effectiveness’’ as a whole.
authorities 139 within a reasonable                      authorities 143 should be notified                     Examining the comprehensiveness of
period, but not more than 60 days 140                    immediately.                                           policies and procedures implemented to
after determining that there is credible                   As previously stated, the hospice                    satisfy these elements is merely the first
evidence of a violation.141 Prompt                       should take appropriate corrective                     step. Evaluating how a compliance
reporting will demonstrate the hospice’s                 action, including prompt identification                program performs during a provider’s
good faith and willingness to work with                  of any overpayment to the affected                     day-to-day operations becomes the
governmental authorities to correct and                  payor and the imposition of proper                     critical indicator.146
remedy the problem. In addition,                         disciplinary action. If potential fraud or                As previously stated, a compliance
reporting such conduct will be                           violations of the False Claims Act are                 program should require the
considered a mitigating factor by the                    involved, any repayment of the                         development and distribution of written
OIG in determining administrative                        overpayment should be made as part of                  compliance policies, standards and
sanctions (e.g., penalties, assessments                  the discussion with the Government                     practices that identify specific areas of
and exclusion), if the reporting provider                following a report of the matter to law                risk and vulnerability to a hospice. One
becomes the target of an OIG                             enforcement authorities. Otherwise,                    way to judge whether these policies,
investigation.142                                        normal repayment channels should be                    standards and practices measure up is to
   When reporting misconduct to the                      used for repaying identified                           observe how an organization’s
Government, a hospice should provide                     overpayments.144 Failure to disclose                   employees react to them. Do employees
all evidence relevant to the alleged                     overpayments within a reasonable                       consistently experience recurring
violation of applicable Federal or State                 period of time could be interpreted as                 pitfalls because they lack guidance on
law(s) and potential cost impact. The                    an intentional attempt to conceal the                  certain issues not adequately covered in
compliance officer, under advice of                      overpayment from the Government,                       company policies? Are employees
counsel, and with guidance from the                      thereby establishing an independent                    flagrantly disobeying an organization’s
governmental authorities, could be                       basis for a criminal violation with                    standards of conduct because they
requested to continue to investigate the                 respect to the hospice, as well as any                 observe no sincere buy-in from senior
reported violation. Once the                             individuals who may have been                          management? Do employees have
investigation is completed, the                          involved.145 For this reason, hospice                  trouble understanding policies and
compliance officer should be required to                 compliance programs should emphasize                   procedures because they are written in
notify the appropriate governmental                      that overpayments obtained from                        legalese or at difficult reading levels?
authority of the outcome of the                          Medicare or other Federal health care                  Does an organization routinely
investigation, including a description of                programs should be promptly disclosed                  experience systematic billing failures
the impact of the alleged violation on                   and returned to the payor that made the                because employees are ill-instructed
the operation of the applicable health                   erroneous payment.                                     how to implement written policies and
                                                           The OIG believes all hospices,                       practices? Written compliance policies,
   139 Appropriate Federal and State authorities         regardless of size, should ensure they                 standards and practices are only as good
include the Office of Inspector General of the           are reporting the results of any
Department of Health and Human Services, the
                                                                                                                as an organization’s commitment to
Criminal and Civil Divisions of the Department of
                                                         overpayments or violations to the                      apply them in practice.
Justice, the U.S. Attorney in relevant districts, the    appropriate entity and taking the                         Every hospice should designate a
Federal Bureau of Investigation and the other            appropriate corrective action to remedy                compliance officer or contact to serve as
investigative arms for the agencies administering        the identified deficiency.
the affected Federal or State health care programs,
                                                                                                                the focal point of compliance activities,
such as the State Medicaid Fraud Control Unit, the       III. Assessing the Effectiveness of a                  and, if appropriate, a compliance
Defense Criminal Investigative Service, the              Compliance Program                                     committee to advise and assist the
Department of Veterans Affairs and the Office of                                                                compliance officer. An organization
Personnel Management (which administers the                 Because the Government views the                    needs to seriously consider whoever
Federal Employee Health Benefits Program).               existence of a compliance program as a
   140 In contrast, to qualify for the ‘‘not less than                                                          fills such integral roles and periodically
                                                         mitigating factor when determining                     monitor how the individuals chosen
double damages’’ provision of the False Claims Act,
the report must be provided to the Government            culpability regarding allegations of
                                                                                                                satisfy their responsibilities. Does a
within 30 days after the date when the hospice first     fraud and abuse only if the compliance
                                                                                                                compliance officer have sufficient
obtained the information. 31 U.S.C. 3729(a).             program is ‘‘effective,’’ how a hospice
   141 The OIG believes that some violations may be                                                             professional experience working with
                                                         may assess its compliance program
so serious that they warrant immediate notification                                                             billing, clinical records, documentation,
                                                         becomes quite significant. A hospice, as
to governmental authorities, prior to, or                                                                       and auditing principles to perform
simultaneous with, commencing an internal                                                                       assigned responsibilities fully? Has a
investigation, e.g., if the conduct: (1) is a clear        143 See  note 139.
violation of civil fraud or criminal law; (2) has a        144 A  hospice should consult with its Medicare      compliance officer or compliance
significant adverse effect on the quality of care        fiscal intermediary or HCFA for any further            committee been negligent in ensuring an
provided to program beneficiaries (in addition to        guidance regarding normal repayment channels.          organization’s compliance due to
any other legal obligations regarding quality of         The hospice’s Medicare fiscal intermediary or
care); or (3) indicates evidence of a systemic failure
                                                                                                                inadequate funding, staff, and authority
                                                         HCFA may require certain information (e.g., alleged
to comply with applicable laws or an existing            violation or issue causing overpayment, description    necessary to carry out their jobs? Did
corporate integrity agreement, regardless of the         of the internal investigative process with
financial impact on Federal health care programs.        methodologies used to determine any                      146 Evaluation may be accomplished through
   142 The OIG has published criteria setting forth      overpayments, disciplinary actions taken and           techniques such as employee surveys, management
those factors that the OIG takes into consideration      corrective actions taken, etc.) to be submitted with   assessments and periodic review of benchmarks
in determining whether it is appropriate to exclude      return of any overpayments, and that such              established for audits, investigations, disciplinary
a health care provider from program participation        repayment information be submitted to a specific       action, overpayments and employee feedback. All
pursuant to 42 U.S.C. 1320a–7(b)(7) for violations       department or individual. Interest will be assessed,   elements of an organization’s compliance program
of various fraud and abuse laws. See 62 FR 67392         when appropriate. See 42 CFR 405.376.                  can be evaluated, including policies, training,
(December 24, 1997).                                        145 See 42 U.S.C. 1320a–7b(a)(3).                   practices and compliance personnel.
54048                  Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices

adding the compliance officer function       compliance policies, practices or            knowingly disregard associated legal
to a key management position with            procedures.                                  exposure? Is there a consistent and
other significant duties compromise the         An effective compliance program           methodical approach to the correlation
goals of the compliance program (e.g.,       should include guidance regarding            between compliance issues identified
chief financial officer who discounts        disciplinary action for corporate            and the corrective action necessary to
certain overpayments identified to           officers, managers, health care              remedy? Are isolated overpayment
improve the company’s bottom line            professionals and other employees who        matters properly resolved through
profits)? Since a compliance officer and     have failed to adhere to an                  normal repayment channels? Is credible
a compliance committee can potentially       organization’s standards of conduct,         evidence of misconduct that may violate
have a significant impact on how             Federal health care program                  criminal, civil or administrative law
effectively a compliance program is          requirements or Federal or State laws.       promptly reported to the appropriate
implemented, those functions should          The number and caliber of disciplinary       Federal and State authorities? If any
not be taken for granted.                    actions taken by an organization can be      step in this process of responding to
   As evidenced throughout this              insightful. Have appropriate sanctions       detected offenses is circumvented or
guidance, the proper education and           been applied to compliance                   improperly handled, such conduct
training of corporate officers, managers,    misconduct? Are sanctions applied to         would most likely demonstrate an
health care professionals and other          all employees consistently, regardless of    ineffective compliance program, as well
applicable employees of a provider, and      an employee’s level in the corporate         as potentially result in criminal, civil or
the continual retraining of current          hierarchy? Have double-standards in          administrative liability.
personnel at all levels, are significant     discipline bred cynicism among                  Documentation is the key to
elements of an effective compliance          employees? When disciplinary action is       demonstrating the effectiveness of a
program. Accordingly, such efforts           not taken seriously or applied               provider’s compliance program. For
should be routinely evaluated. Are           haphazardly, such practices reflect          example, documentation of the
employees trained frequently enough?         poorly on senior management’s                following should be maintained: audit
Do employees fail post-training tests        commitment to foster compliance as           results; logs of hotline calls and their
that evaluate knowledge of compliance?       well as the effectiveness of an              resolution; corrective actions plans; due
Do training sessions and materials           organization’s compliance program in         diligence efforts regarding business
adequately summarize important               general.                                     transactions; records of employee
                                                Another critical component of a           training, including the number of
aspects of the organization’s compliance
                                             successful compliance program is an          training hours; disciplinary action; and
program, such as fraud and abuse laws,
                                             ongoing monitoring and auditing              modification and distribution of policies
Federal health care program                  process. The extent and frequency of the     and procedures. Given that the OIG is
requirements, and claim development          audit function may vary depending on         encouraging self-disclosure of
and submission processes? Are training       factors such as the size and available       overpayments and billing irregularities,
instructors qualified to present the         resources, prior history of                  maintaining a record of disclosures and
subject matter and experienced enough        noncompliance, and risk factors of a         refunds to the health care programs is
to duly field questions? When thorough       particular hospice. The hallmark of          strongly endorsed. A documented
compliance training is periodically          effective monitoring and auditing efforts    practice of refunding of overpayments
conducted, employees receive the             is how an organization determines the        and self-disclosing incidents of non­
reinforcement they need to ensure an         parameters of its reviews. Do audits         compliance with Federal health care
effective compliance program.                focus on all pertinent departments of an     program requirements can serve as
   An open line of communication             organization? Does an audit cover            evidence of a meaningful compliance
between the compliance officer and a         compliance with all applicable laws and      effort by a hospice.
provider’s employees is equally              Federal health care program                     Hospices, as well as all health care
important to the success of a                requirements? Are results of past audits,    providers, should acknowledge that it is
compliance program. In today’s               pre-established baselines or prior           their responsibility to formulate
intensive regulatory environment, the        deficiencies reevaluated? Are the            policies, procedures, and practices that
OIG believes that a provider cannot          elements of the compliance program           are tailored to their own operations, and
possibly have an effective compliance        monitored? Are auditing techniques           that are comprehensive enough to
program if it receives minimal or no         valid and conducted by objective             ensure compliance with all applicable
feedback from its employees regarding        reviewers? The extent and sincerity of       Federal health care program
compliance matters. For instance, if a       an organization’s efforts to confirm its     requirements. An organization is in the
compliance officer does not receive          compliance often proves to be a              best position to validate the suitability
appropriate inquiries from employees:        revealing determinant of a compliance        of its compliance efforts based upon its
Do policies and procedures fail to           program’s effectiveness.                     own particular circumstances.
adequately guide employees to whom              As was expressed in the last section
and when they should be                      of this guidance, it is essential that the   IV. Conclusion
communicating compliance matters? Do         compliance officer or other management          Through this document, the OIG has
employees fear retaliation if they report    officials immediately investigate reports    attempted to provide a foundation to the
misconduct? Are employees reporting          or reasonable indications of suspected       process necessary to develop an
issues not related to compliance through     noncompliance. If a material violation       effective and cost-efficient hospice
the wrong channels? Do employees have        of applicable law or compliance              compliance program. As previously
bad-faith, ulterior motives for reporting?   program requirements has occurred, a         stated, however, each program must be
Regardless of the means that a provider      provider must take decisive steps to         tailored to fit the needs and resources of
employs, whether it be telephone             correct the problem. Providers who do        an individual hospice, depending upon
hotline, email, or suggestion boxes,         not thoroughly investigate misconduct        its particular corporate structure,
employees should seek clarification          leave themselves open to undiscovered        mission and employee composition. The
from compliance staff in the event of        fraud, waste and abuse. When a               statutes, regulations and guidelines of
any confusion or question dealing with       provider learns of certain issues, does it   the Federal and State health insurance
                         Federal Register / Vol. 64, No. 192 / Tuesday, October 5, 1999 / Notices                              54049

programs, as well as the policies and        elementary and higher education, and           DEPARTMENT OF HEALTH AND
procedures of the private health plans,      parents. The Chair of the Panel is Dr.         HUMAN SERVICES
should be integrated into every              Donald N. Langenberg, Chancellor of the
hospice’s compliance program.                University System of Maryland.                 Substance Abuse and Mental Health
   The OIG recognizes that the health           The Panel will build on the findings        Services Administration
care industry in this country, which         presented by the National Research
reaches millions of beneficiaries and                                                       Current List of Laboratories Which
                                             Council’s Committee on the Prevention          Meet Minimum Standards To Engage in
expends about a trillion dollars             of Reading Difficulties in Young
annually, is constantly evolving. The                                                       Urine Drug Testing for Federal
                                             Children. Based on these findings and          Agencies, and Laboratories That Have
time is right for hospices to implement      the National Reading Panel’s own
a strong voluntary health care                                                              Withdrawn From the Program
                                             review of the literature, the Panel will:
compliance program. As stated                                                               AGENCY: Substance Abuse and Mental
                                             Determine the readiness for application
throughout this guidance, compliance is                                                     Health Services Administration, HHS.
                                             in the classroom of the results of these
a dynamic process that helps to ensure                                                      ACTION: Notice.
                                             research studies; identify appropriate
that hospices and other health care
                                             means to rapidly disseminate this
providers are better able to fulfill their                                                  SUMMARY:    The Department of Health and
                                             information to facilitate effective
commitment to ethical behavior, as well                                                     Human Services notifies Federal
                                             reading instruction in the schools; and
as meet the changes and challenges                                                          agencies of the laboratories currently
                                             identify gaps in the knowledge base for
being imposed upon them by Congress                                                         certified to meet standards of Subpart C
                                             reading instruction and the best ways to
and private insurers. Ultimately, it is                                                     of Mandatory Guidelines for Federal
                                             close these gaps.
OIG’s hope that a voluntarily created                                                       Workplace Drug Testing Programs (59
compliance program will enable                  The agenda for this meeting will            FR 29916, 29925). A similar notice
hospices to meet their goals, improve        include presentations of subgroup              listing all currently certified laboratories
the quality of patient care, and             reports and discussions of the reports by      will be published during the first week
substantially reduce fraud, waste and        The National Reading Panel. A period of        of each month, and updated to include
abuse, as well as the cost of health care    time will be set aside at approximately        laboratories which subsequently apply
to Federal, State and private health         3 pm on Thursday, October 14 for               for and complete the certification
insurers.                                    members of the public to address the           process. If any listed laboratory’s
  Dated: September 29, 1999.                 Panel and express their views regarding        certification is totally suspended or
                                             the Panel’s mission. Individuals               revoked, the laboratory will be omitted
June Gibbs Brown,
                                             desiring an opportunity to speak before        from updated lists until such time as it
Inspector General.
                                             the Panel should address their requests        is restored to full certification under the
[FR Doc. 99–25787 Filed 10–4–99; 8:45 am]    to F. William Dommel, Jr., J.D.,               Guidelines.
BILLING CODE 4150–04–P                       Executive Director, National Reading              If any laboratory has withdrawn from
                                             Panel, c/o Mr. Patrick, Riccards and           the National Laboratory Certification
                                             either mail them to the Widmeyer-Baker         Program during the past month, it will
DEPARTMENT OF HEALTH AND                                                                    be identified as such at the end of the
                                             Group, 1825 Connecticut Avenue, NW,
HUMAN SERVICES                                                                              current list of certified laboratories, and
                                             Fifth Floor, Washington, DC 20009, or e­
National Institutes of Health                mail them to patrickr@twbg.com, or fax         will be omitted from the monthly listing
                                             them to 202–667–0902. Requests for             thereafter.
National Institute of Child Health and       addressing the Panel should be received           This Notice is now available on the
Human Development                            by October 11, 1999. Panel business            internet at the following website:
                                             permitting, each public speaker will be        http://www.health.org/workpl.htm
Meeting of the National Reading Panel        allowed five minutes to present his or         FOR FURTHER INFORMATION CONTACT: Mrs.
   Notice is hereby given of the             her views. In the event of a large             Giselle Hersh or Dr. Walter Vogl,
Washington DC area meeting of the            number of public speakers, the Panel           Division of Workplace Programs, 5600
National Reading Panel. The meeting          Chair retains the option to further limit      Fishers Lane, Rockwall 2 Building,
will be held on Wednesday, October 13,       the presentation time allowed to each.         Room 815, Rockville, Maryland 20857;
1999, from 8 am to 6 pm and on               Although the time permitted for oral           Tel.: (301) 443–6014.
Thursday, October 14, 1999 from 8 am         presentations will be brief, the full text     SPECIAL NOTE: Please use the above
to 6 pm. The meeting location is the         of all written comments submitted to           address for all surface mail and
Marriott Residence Inn, 7335 Wisconsin       the Panel will be made available to the        correspondence. For all overnight mail
Avenue, Bethesda, Maryland, 20814.           Panel members for consideration.               service use the following address:
The entire meeting will be open to the          For further information contact Mr.         Division of Workplace Programs, 5515
public.                                      Patrick Riccards at 202–667–0901.              Security Lane, Room 815, Rockville,
   The National Reading Panel was            Individuals who plan to attend and             Maryland 20852.
requested by Congress and created by         need special assistance, such as sign          SUPPLEMENTARY INFORMATION:
the Director of the National Institute of    language interpretation or other               Mandatory Guidelines for Federal
Child Health and Human Development           reasonable accommodations, should              Workplace Drug Testing were developed
in consultation with the Secretary of        contact Mr. Patrick Riccards by October        in accordance with Executive Order
Education. The Panel will study the          11, 1999.                                      12564 and section 503 of Pub. L. 100–
effectiveness of various approaches to                                                      71. Subpart C of the Guidelines,
                                               Dated: September 28, 1999.
teaching children how to read and                                                           ‘‘Certification of Laboratories Engaged
report on the best ways to apply these       Yvonne Maddox,                                 in Urine Drug Testing for Federal
findings in classrooms and at home. Its      Deputy Director, National Institute of Child   Agencies,’’ sets strict standards which
members include prominent reading            Health and Human Development.                  laboratories must meet in order to
researchers, teachers, child                 [FR Doc. 99–25757 Filed 10–4–99; 8:45 am]      conduct urine drug testing for Federal
development experts, leaders in              BILLING CODE 4140–01–M                         agencies. To become certified an
